<html>
<title> - H.R. 1084, THE COMMERCIAL ADVERTISEMENT LOUDNESS MITIGATION ACT (CALM); H.R. 1147, THE LOCAL COMMUNITY RADIO ACT OF 2009; AND H.R. 1133, THE FAMILY TELEPHONE CONNECTION PROTECTION ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
H.R. 1084, THE COMMERCIAL ADVERTISEMENT LOUDNESS MITIGATION ACT (CALM); 
 H.R. 1147, THE LOCAL COMMUNITY RADIO ACT OF 2009; AND H.R. 1133, THE 
           FAMILY TELEPHONE CONNECTION PROTECTION ACT OF 2009

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________

                           Serial No. 111-47


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
73-746                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE
 
    HENRY A. WAXMAN, California      JOE BARTON, Texas
              Chairman                 Ranking Member
JOHN D. DINGELL, Michigan            RALPH M. HALL, Texas
  Chairman Emeritus                  FRED UPTON, Michigan
EDWARD J. MARKEY, Massachusetts      CLIFF STEARNS, Florida
RICK BOUCHER, Virginia               NATHAN DEAL, Georgia
FRANK PALLONE, Jr., New Jersey       ED WHITFIELD, Kentucky
BART GORDON, Tennessee               JOHN SHIMKUS, Illinois
BOBBY L. RUSH, Illinois              JOHN B. SHADEGG, Arizona
ANNA G. ESHOO, California            ROY BLUNT, Missouri
BART STUPAK, Michigan                STEVE BUYER, Indiana
ELIOT L. ENGEL, New York             GEORGE RADANOVICH, California
GENE GREEN, Texas                    JOSEPH R. PITTS, Pennsylvania
DIANA DeGETTE, Colorado              MARY BONO MACK, California
  Vice Chairman                      GREG WALDEN, Oregon
LOIS CAPPS, California               LEE TERRY, Nebraska
MICHAEL F. DOYLE, Pennsylvania       MIKE ROGERS, Michigan
JANE HARMAN, California              SUE WILKINS MYRICK, North Carolina
TOM ALLEN, Maine                     JOHN SULLIVAN, Oklahoma
JANICE D. SCHAKOWSKY, Illinois       TIM MURPHY, Pennsylvania
HILDA L. SOLIS, California           MICHAEL C. BURGESS, Texas
CHARLES A. GONZALEZ, Texas           MARSHA BLACKBURN, Tennessee
JAY INSLEE, Washington               PHIL GINGREY, Georgia
TAMMY BALDWIN, Wisconsin             STEVE SCALISE, Louisiana            
MIKE ROSS, Arkansas                  
ANTHONY D. WEINER, New York          
JIM MATHESON, Utah                   
G.K. BUTTERFIELD, North Carolina     
CHARLIE MELANCON, Louisiana          
JOHN BARROW, Georgia                 
BARON P. HILL, Indiana               
DORIS O. MATSUI, California          
DONNA M. CHRISTENSEN, Virgin         
    Islands                          
KATHY CASTOR, Florida                
JOHN P. SARBANES, Maryland           
CHRISTOPHER S. MURPHY, Connecticut   
ZACHARY T. SPACE, Ohio               
JERRY McNERNEY, California           
BETTY SUTTON, Ohio                   
BRUCE BRALEY, Iowa                   
PETER WELCH, Vermont                 
                                     

                                  (ii)
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              J. DENNIS HASTERT, Illinois
ANNA G. ESHOO, California            CLIFF STEARNS, Florida
BART STUPAK, Michigan                NATHAN DEAL, Georgia
DIANA DeGETTE, Colorado              BARBARA CUBIN, Wyoming
MICHAEL F. DOYLE, Pennsylvania       JOHN SHIMKUS, Illinois
JAY INSLEE, Washington               HEATHER WILSON, New Mexico
ANTHONY D. WEINER, New York          CHARLES W. ``CHIP'' PICKERING, 
G.K. BUTTERFIELD, North Carolina         Mississippi
CHARLIE MELANCON, Louisiana          VITO FOSELLA, New York
BARON P. HILL, Indiana               GEORGE RADANOVICH, California
DORIS O. MATSUI, California          MARY BONO MACK, California
DONNA M. CHRISTENSEN, Virgin         GREG WALDEN, Oregon
    Islands                          LEE TERRY, Nebraska
KATHY CASTOR, Florida                MIKE FERGUSON, New Jersey
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     5
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     6
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     8
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     9
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................   200
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, prepared statement..............   202

                               Witnesses

Frank W. Krogh, Esquire, Morrison and Foerster LLP...............    11
    Prepared statement...........................................    14
Curtis Hopfinger, Director of Government & Regulatory Affairs, 
  Securus Technologies...........................................    22
    Prepared statement...........................................    24
David Goad, National Sheriffs' Association.......................    37
    Prepared statement...........................................    40
Joel Kelsey, Policy Analyst, Consumers Union.....................    45
    Prepared statement...........................................    47
David Donovan, President, The Association for Maximum Service 
  Television, Inc................................................    52
    Prepared statement...........................................    54
Jim Starzynski, Principal Engineer and Audio Architect, NBC 
  Universal, Advanced Engineering................................    66
    Prepared statement...........................................    68
Peter Doyle, Chief, Audio Division, Media Bureau, Federal 
  Communications Commission......................................    77
    Prepared statement...........................................    79
Caroline Beasley, Executive Vice President and CFO, Beasley 
  Broadcast Group................................................    89
    Prepared statement...........................................    91
Cheryl A. Leanza, Policy Director, United Church of Christ, 
  Office of Communications, Inc..................................   115
    Prepared statement...........................................   118

                           Submitted Material

Letter of June 10, 2009, from 100 Black Men of Omaha, Inc. to 
  Subcommittee, submitted by Mr. Terry...........................   206
Letter of June 4, 2009, from Jefferson Public Radio to Mr. 
  Walden, submitted by Mr. Walden................................   207
Letter of June 3, 2009, from WVTF Public Radio to Subcommittee, 
  submitted by Mr. Boucher.......................................   210
Letter of June 9, 2009, from American Correctional Association to 
  Subcommittee, submitted by Mr. Boucher.........................   214
Editorial entitled, ``Innocent Victims the State is Gouging 
  Inmates' Families,'' by Errol Louis, November 16, 2004, 
  submitted by Mr. Weiner........................................   204
Editorial entitled, ``Dial R for Ripoff Gov Must End Prison Phone 
  Monopoly that Bilks Inmates' Kin,'' by Errol Louis, November 
  15, 2005, submitted by Mr. Weiner..............................   205


H.R. 1084, THE COMMERCIAL ADVERTISEMENT LOUDNESS MITIGATION ACT (CALM); 
 H.R. 1147, THE LOCAL COMMUNITY RADIO ACT OF 2009; AND H.R. 1133, THE 
           FAMILY TELEPHONE CONNECTION PROTECTION ACT OF 2009

                              ----------                              


                        THURSDAY, JUNE 11, 2009

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Rick 
Boucher (chairman) presiding.
    Members present: Representatives Boucher, Rush, Eshoo, 
Stupak, Doyle, Weiner, Butterfield, McNerney, Stearns, Walden, 
and Terry.
    Staff present: Roger Sherman, Chief Counsel; Shawn Chang, 
Counsel; Liz Eraker, Intern; Amy Levine, Counsel; Sarah Fisher, 
Special Assistant; Pat Delgado, Chief of Staff (Waxman); Amy 
Bender, Minority Detailee; Neil Fried, Senior Minority Counsel; 
Sam Costello, Minority Legislative Analyst; and Amanda 
McGreevy, Minority Legislative Intern.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. Good morning to everyone. Before addressing 
the matters that are pending before the subcommittee today, I 
want to note that after years of planning, the digital 
television transition will take place tomorrow. I want to take 
this moment to thank the members of the staff of the FCC, to 
thank the personnel at NTIA and the broad range of stakeholders 
ranging from the broadcasters and cable to satellite companies, 
retailers and the manufacturers of converter boxes for all of 
their effective work that will help to assure a smooth digital 
transition. While some viewers remain unprepared, the Nielsen 
Survey reported this week that fully 97.5 percent of Americans 
are now fully prepared and ready for tomorrow's transition. The 
FCC's call centers are staffed and ready to provide assistance 
to viewers who have difficulties connecting. I have every 
confidence that the transition will be uneventful for the vast 
majority of Americans.
    Today the subcommittee considers three stand-alone 
measures, the first of which is H.R. 1084, the Commercial 
Advertisement Loudness Mitigation Act otherwise known as the 
CALM Act, introduced by our colleague from California, Ms. 
Eshoo, in order to address a leading consumer complaint, the 
volume of advertisements on television. All of us have had the 
experience of enjoying a favorite program only to find 
ourselves scrambling for the remote control when at the 
commercial break the volume of the television seems to double. 
I have cosponsored the CALM Act and I suspect that if enacted 
this measure will become as popular as the legislation that 
created the do not call list, and I look forward to learning 
why the phenomenon of loud commercials exist and what we can do 
as policymakers in order to address that phenomenon.
    H.R. 1133, the Family Telephone Connection Protection Act 
introduced by Chairman Rush would address the serious matter of 
the rates that are paid by prison inmates for collect calling 
services. Inmates are literally a captive audience and they 
typically have no option for using the telephone to contact 
family and legal counsel other than making their calls from a 
prison payphone and the rates that are charged for those 
services are enormous and include not only a high per-minute 
rate for the service but also per-call connection fees that can 
be as high as $4 per call. The burden of these charges often 
falls on those who are least able to afford the charges, the 
inmates who have virtually no income and the members of their 
families who frequently face their own financial hardships. 
Phone service for inmates is a necessity. It is not a luxury. 
It is often their only link to family and attorneys and 
therefore, we hope that this morning the witnesses will tell us 
what may be done to ensure that prison inmates have access to 
this very necessary service at rates that are reasonably 
affordable.
    The third bill that we are hearing this morning is H.R. 
1147, the Local Community Radio Act introduced by our 
colleagues Representatives Doyle and Terry. It would provide 
additional opportunities for low-power FM radio stations by 
allowing their operation on third adjacent channels to full-
power radio stations. LPFM stations are typically community-
based, nonprofits and they operate usually at 100 watts or less 
of broadcast power and have a broadcast reach of only a few 
miles. They play a truly unique role in our media firmament. 
They are more likely then their full-power counterparts to be 
owned by women or by minorities. They are an important forum 
for local clergy, for politicians, for civil rights focused 
programs and community leaders who seek to weigh in on local 
matters of public interest. They are also commonly found at our 
institutions of higher education across the United States. 
While expanding opportunities for more low-power FM stations is 
desirable, we must be certain that expanded low-power FM 
service is implemented in a way that does not jeopardize 
existing broadcast services including noncommercial, full-power 
FM stations. This morning we are interested in how low-power FM 
stations on third adjacencies can protect existing services 
including FM radio, emerging HD radio and radio reading 
services.
    I want to welcome our witnesses and thank them for their 
attendance here this morning. We will turn to your testimony 
shortly.
    But at this time, I am pleased to recognize other members 
of the subcommittee for their own statements and I will call on 
the gentleman from Florida, the ranking Republican on our 
subcommittee, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning and thank you, Mr. Chairman and 
thank you for having this hearing. We have nine alert, ready-
to-go witnesses and it is quite impressive.
    As you mentioned, we have three distinct pieces of 
legislation we are looking at. I will go with one that you sort 
of mentioned in the last which is H.R. 1133, the Family 
Telephone Connection Protection Act. As mentioned, it would 
require the FCC to regulate telephone services to inmates in 
correctional facilities. Typically, a single carrier is 
selected through a competitive bidding process to provide the 
prisoner his phone service and although services and rates vary 
by State or facility, inmates are often limited to making a 
collect call and the rates charged are frequently a bit higher 
to help pay for these collect calls nationwide.
    Supporters of this legislation argue that prison call fees 
are too high costing families too much to keep in touch with 
their relatives in jail and making it harder to rehabilitate 
criminals. Our nation's sheriffs have a unique perspective 
however since over 80 percent of the nation's local jails are 
simply under the jurisdiction of the sheriffs so it is very 
good, Mr. Chairman, we have them here to testify to give their 
side.
    This bill could lead to a prohibition on a payment of 
commissions to the correctional facilities by providers of the 
phone service. These commissions go to providing security 
measures to monitor non-privilege calls, to prevent elicit 
activities and to pay for the cost of the telephone system 
itself. Without the commissions, these correctional facilities 
will either have to ask taxpayers to front the cost of the 
phone system or completely dismantle the program.
    In addition, these commissions are a main source of funding 
for many beneficial inmate programs such as adult education, 
any recidivism programs, jail ministries and substance abuse 
programs. For example, in New York some funding from telephone 
commissions were used to provide free bus rides to the 
facilities for inmate family members. I certainly understand 
the hardship that many inmates' families have to endure 
however, and frankly as local and State budgets get tighter and 
tighter not allowing these commissions might force correctional 
facilities to eliminate many important programs.
    Mr. Chairman, the second bill under discussion is H.R. 
1147, the Local Community Radio Act. The FCC created low-power 
FM station service in 2000 to promote local programming. At the 
end of 2000, Congress restricted how close low-power stations 
may operate to full-power stations due to chiefly the 
interference concerns. As a result, fewer low-power stations 
can be authorized. This bill would simply repeal the statutory 
limits. I support the idea of allowing more low-power stations 
to be licensed however, such a sweeping policy change needs to 
balance the potential impact on full-power FM stations, namely 
interference.
    Third, adjacent protection exists for a reason, to guard 
against such interference. There is a policy already in place 
to allow low-power FM stations to operate in the FM band with 
third adjacent protection. The FCC has licensed more than 865 
low-power operators with more having been granted construction 
permits or that have applications that are pending. As we 
consider H.R. 1147, we need to fully examine the impact on 
full-power FM stations and the issue of interference. A broad 
blanket policy change may be unnecessary at this time. I hope 
to work with the sponsors of this bill as we move forward.
    And last, Mr. Chairman, we are examining H.R. 1084, the 
Commercial Advertisement Loudness Mitigation Act and I will 
compliment the author of the bill with the word CALM Act. I am 
sure they worked hard to get that to come together. This bill 
would require the FCC to mandate rules within one year 
prohibiting commercials from being excessively noisy or 
strident. The issue is more complex than it appears. Many 
different entities are responsible for producing and 
distributing the content consumers see and hear today. Each 
element may be recorded and provided at different volume 
levels. Moreover, shows and movies have a dynamic sound range 
to cover everything from a quiet scene to an explosion. 
Commercials, meanwhile, tend to have a narrow sound range. 
Volume levels are typically set for the programming which can 
throw off the volume levels for commercials. Two years ago, the 
Advanced Television Systems Committee established a subgroup on 
digital television loudness. This subgroup consists of the 
leading experts on audio technology from all the major 
broadcast networks, cable, production and post-production, 
manufacturing and education in the United States of America. 
Since it was established, these audio technology experts have 
crafted a hard-fought consensus on the recommended practices 
that should be employed across the TV industry to deal with TV 
loudness concerns.
    Mr. Chairman, I trust the collective wisdom of these 
technical experts to craft a solution to the TV loudness issue. 
The subgroups hard work should not be undone by legislation. 
One suggestion would be to revise the bill simply so that the 
FCC rulemaking only commences if industry has not addressed the 
issue within a certain amount of time. So I think we have, 
perhaps, a solution to our problem which is Advanced Television 
Systems Committee and all the hard work they have done in this 
area.
    So, Mr. Chairman, I look forward to the hearing, the 
witnesses and I welcome again the opportunity to ask them 
questions. Thank you.
    Mr. Boucher. Thank you very much, Mr. Stearns, for a very 
thoughtful statement. The gentleman from Pennsylvania, Mr. 
Doyle, is recognized for five minutes. I am sorry, for two 
minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle of Pennsylvania. Thank you, Mr. Chairman, for 
holding this legislative hearing that includes the bill I 
introduced with my good friend, Lee Terry, H.R. 1147, the Local 
Community Radio Act.
    You know, it is appropriate to hold this hearing this 
morning. I heard on the radio today that today is the 74th 
anniversary of the first FM broadcast. Students of that story 
know that the dominant AM broadcaster, RCA, successfully 
lobbied the FCC to move the FM band, obsoleting the inventor's 
burgeoning radios, destroying his company, leading the 
inventor, Edward Armstrong, to suicide and delaying FM's role-
out for decades. We are almost full circle here today but this 
story starts a decade ago. In 2000, the Federal Communications 
Commission, started to create new community radio stations run 
by local schools, churches, community groups and governments. 
They did this because their missions from Congress is not to 
help entrench lobbies but to make sure as many Americans as 
possible have access to the public's airwaves to fulfill a 
basic human need, the right to communicate. Thousands of 
peoples and groups wanted these new stations and applied.
    Almost immediately, incumbent broadcasters warned this 
subcommittee that these new community radio stations would 
create and I quote ``oceans of interference harming listeners 
efforts to listen to the stations they already know and 
enjoy.'' So in response to the broadcasters' concern, Congress 
called timeout and asked for an independent study to examine 
this issue. The premise of Congress' decision to order the 
study was that if the study confirmed the FCC's findings, 
Congress would remove it's prohibition on the FCC and allow it 
to fully implement community radio.
    Well, the study came back, agreed with the FCC that these 
stations can be created without harming listeners and through 
two unanimous bipartisan votes the FCC has twice now 
recommended to Congress to do so. I am asking Congress to keep 
its part of the bargain today.
    After Congress limited community radio in 2001, several 
groups in my district, the City of Pittsburgh and some working-
class suburbs lost their chance to go on the air. I will point 
out that late last month, Mr. Chairman, Pittsburgh's only 
minority-owned station and the city's only hip-hop and R and B 
station sold for $9 million. The new owners plan a format 
change and now no one else can connect with urban radio 
listeners in my district. It is almost like incumbent 
broadcasters wrote the line that William Shakespeare actually 
wrote in Hamlet. ``Give every man his ear but few his voice.''
    Mr. Chairman, we need to make sure that more Americans get 
a chance to exercise their voice. We must pass this bill and we 
must bring low-power back to the people.
    I yield back.
    Mr. Boucher. Thank you very much, Mr. Doyle. The gentleman 
from Nebraska, Mr. Terry, is recognized for two minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman, for holding this 
hearing. I appreciate my friend, Mr. Doyle, and associate 
myself with your Shakespearean opening statement. And I would 
also like to take this opportunity to thank several that have 
worked hard for this bill like Candace Asman, Cory Hoffman and 
Pete Tridish of Prometheus Radio, Michael Bracy of the Future 
of Music Coalition, the band Okay Go and our very own witness 
today, Cheryl Leanza with the United Church of Christ.
    There are numerous benefits by low-power radio stations to 
smaller communities and what I mean by smaller communities is 
both in an urban sense in a suburban and even a rural sense. It 
gives people a voice to their particular community that they 
may not have now. And as Mike pointed out, the studies have 
shown that we can technically do low-power FM without stepping 
on the signals of the higher power stations.
    Now, with that, Mr. Chairman, I would like to enter into 
the record the 100 Black Men of Omaha who are interested as an 
organization of providing low-power FM within the African 
American community of Omaha to provide a platform for 
discussion of community issues. I ask unanimous consent that I 
can submit that for the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Boucher. Without objection.
    Mr. Terry. And with that, once again thank you but I can't 
resist on 1133 to say that is this the definition of a captive 
customer.
    Mr. Boucher. Thank you very much. Thank you, Mr. Terry. The 
gentleman from California, Mr. McNerney, is recognized for two 
minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Mr. Chairman, for holding this 
hearing and thank you to the witnesses for coming forth today.
    I am a cosponsor of 1147, the Local Community Radio Act. I 
believe that it is important that the Federal Communication 
Commission provide equitable rules for low-power FM stations. 
Our smallest stations deserve to be heard to be able to provide 
community focus programming that serves all of our listeners' 
needs.
    Concerning the CALM Act, we have all experienced unpleasant 
sudden volume changes during TV programming. The problem was 
identified more than 50 years ago and many other nations are 
already adopting standards. Now, there is one experience I had 
as a young boy. I was a teenager. One of the very Sunday 
afternoons that my father allowed me to watch TV which wasn't 
every Sunday afternoon, I was watching a horror show in the den 
and he was out barbequing and the advertisement came on and he 
came running in and wanted to know what was happening because 
it was so loud he could hear all the screaming outside. It was 
somebody selling furniture. So I have experienced this. It will 
be interesting to see what we can do about it.
    So with that, I yield back the balance of my time.
    Mr. Boucher. Thank you, Mr. McNerney. The gentleman from 
Oregon, Mr. Walden, is recognized for two minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank you very much, Mr. Chairman. I 
appreciate the opportunity to get the testimony today from the 
witnesses on these various bills.
    I would like to submit for the record a letter I received 
from Jefferson Public Radio with regards to H.R. 1147 and some 
issues that they are raising and I think they are very 
legitimate.
    [The information appears at the conclusion of the hearing.]
    Mr. Boucher. Without objection.
    Mr. Walden. Thank you, Mr. Chairman.
    The Jefferson Public Radio probably has more translators 
covering a more rigorous mountain environment providing public 
broadcasting in southern Oregon then probably anywhere else in 
the country and they are concerned about the effect that H.R. 
1147 would have regarding displacement of their translators. 
They are further concerned about the language in H.R. 1147 
which would give authority to the FCC to go even further than 
the third adjacent channel relaxation in the rulemakings. And 
so these are issues that I think the committee needs to look at 
very carefully. Having been in the broadcast business for more 
than 21 years, I am not now a licensee, I share the concern of 
many who want to make sure that as you move forward on adding 
additional signals in the marketplace that there isn't 
disruptive interference especially too, looking at old 
receivers versus new receivers. There are legacy radios that 
aren't as selective as some of the new ones in terms of 
listening quality and differentiating among the signals. And so 
I think these are issues we need to look at carefully before we 
move forward.
    I finally add to the record too, just a note that I hope 
the FCC is doing proper and appropriate oversight over LPFMs. 
They are not supposed to be commercial stations and it would be 
interesting to know just kind of the oversight you are doing to 
see are they operating in some cases as if they were a for-
profit commercial because I don't think that was the intent of 
LPFM nor is it, I am sure, the sponsors' of this legislation 
that they would merge into a full commercial operation.
    So thank you, Mr. Chairman. I look forward to the 
testimony.
    Mr. Boucher. Thank you very much, Mr. Walden. The gentleman 
from Michigan, Mr. Stupak, is recognized for two minutes.
    Mr. Stupak. Thank you, Mr. Chairman, and I am going to be 
in and out all day but I did want to have a few comments 
especially on H.R. 1147. In all honesty, I am not real excited 
about that legislation that is authored by my good friend from 
Pittsburgh, Mr. Doyle. I understand why this low-power 
legislation is so important to him. It is probably because it 
reminds him of his Pittsburgh Penguin front line of Malkin and 
Crosby. That is the low-power line they have in hockey and I am 
sure if for some reason, some bad calls, my Red Wings come up a 
little bit short, I am sure Mr. Doyle will be in full-power 
telling me about it on Friday and Saturday.
    I have a minute left if you care to respond here, Mr. 
Doyle.
    Mr. Walden. Will the gentleman yield? I think you are just 
going to get interference from him.
    Mr. Stupak. It will be interference.
    Mr. Doyle of Pennsylvania. I just want to say to my friend 
that on Monday I will buy the beer for you to cry in.
    Mr. Stupak. It will take more than beer, Doyle.
    I yield back, Mr. Chairman.
    Mr. Boucher. Thank you, Mr. Stupak. The gentleman from 
Illinois, Mr. Rush, chairman of the subcommittee on consumer 
protection is recognized for two minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman. I really am delighted to 
be here and I am also delighted not to have some consensus in 
the previous discussion. The Blackhawks have been low-power for 
a long time now.
    Mr. Chairman, I want to thank you for holding today's 
hearing on these important bills.
    I would like to limit my limited time on remarks on H.R. 
1133. I introduced this bill with the sincerest concerns for 
those innocent families and close friends of those individuals 
who find themselves incarcerated in our jails and prisons. Like 
you and me, they are telephone services consumers having the 
same needs when it comes to hearing their loved ones' voices 
and maintaining regular contact with their families just as you 
and I are and many in this room are. Their personal lives, 
their households and their budget affairs are complicated by 
having to choose accepting a collect phone call from a loved 
one in prison which can cost up to five times as much as the 
same call that you and I would have to make. They have to live 
with the real life consequences of their choice which could 
mean missing a car or rent or a mortgage payment or not having 
enough money to buy groceries.
    There are typically three ways that an inmate can make and 
complete a telephone call in most State and county correctional 
institutions. Either collect, prepaid collect or prepaid by the 
inmate which in most cases is paid indirectly by the inmate's 
family through a deposit into their prison debit account. For 
collect calls, the billed party is usually in charge of billing 
calls recovery fee of so many dollars for each month that 
collect call charges are paid. Or prepaid collect accounts the 
inmate telephone services provide a collector fee usually 
between $5 and $10 in order to process credit card and check 
payments over the phone, and for a prepaid inmate call, the 
inmate telephone services providers charging in the 
neighborhood of $1 for each completed interstate telephone 
call.
    Mr. Chairman, it is patently unfair that family and friends 
of incarcerated individuals should have to pay these inflated 
amounts. Revenue sharing agreements entered in by inmate 
telephone service providers and the correctional authorities 
they service are the primary cause of this egregious disparity. 
Some States are collecting commissions from providers of inmate 
telephone services at rates that are as high as 40 to 65 
percent of gross bills inmate telephone revenues. These 
commissions continue to have the effect of substantially 
inflating rates for collect, prepaid collect and debit 
interstate and intrastate telephone calls. Simply put, they 
represent a pass through of calls from the correctional 
facility and the jails to the inmates and his or her families.
    Accordingly and most notably, my bill H.R. 1133 focuses on 
these commission arrangements. It would prohibit the payment of 
commissions to administrators of correctional institutions and 
departments of correction. It would also require the FCC to 
promulgate rules that ensure interstate rates for calls that 
incarcerated individuals make while in confinement are just, 
reasonable and nondiscriminatory. Finally, it would require 
providers of inmate telephone services to offer both collect 
calling and debit account services which is a cheaper option 
according to paid telephone service providers because it 
mitigates the risk of bad debt associated with collect calling.
    Mr. Chairman, I would like to thank you for holding this 
hearing and I am glad to have the witnesses here to testify on 
behalf of my bill. Thank you and I yield back the balance of my 
time.
    Mr. Boucher. Thank you very much, Mr. Rush. The gentleman 
from North Carolina, Mr. Butterfield, is recognized for two 
minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
convening this hearing and I particularly want to thank 
Chairman Rush for introducing the legislation. This is not the 
first Congress in which he has introduced this bill. He has 
done it in Congresses past and I thank him for his sensitivity 
to this issue.
    As most of you know, I served as a trial judge in my State 
for many years before coming to Congress. I sat on the highest 
trial bench in my State and presided over felony cases and very 
serious crimes. As a consequence of my work, there were many 
people that I had the unfortunate and unpleasant task of 
incarcerating. But I want to tell you from personal experience 
that the telephone system between the jails and the prisons and 
communities is really in need of revamping. It would break my 
heart when mothers and grandmothers and family members would 
call me from time-to-time and tell me that they had--these are 
poor people, who would have $300 and $400 telephone bills 
because their loved ones would call collect from the jail. And 
what does a grandmother say when her grandchild is calling her 
collect from the jail? The only thing she knows to do is to 
accept the charges.
    And so this legislation that we have before us today is 
certainly a step in the right direction. It is not the ideal 
legislation. I wish we could do more. I have always said that 
one remedy for the problem would be to create a debit card just 
like we have here in the cafeteria. Whenever I want to go get a 
meal, I go downstairs and I put this debit card in and I get my 
meal. Now, we could do this in the jails and make it very 
effective.
    The other thing that we could do would be have cell phones 
in the prisons and in the jails that would be controlled. Not 
unlimited cell phones but the prisoners could get cell phones 
for 30 minutes a day and use those cell phones and at the 
conclusion of the call, they could turn in the cell phones and 
they could be locked up and kept away from the prisoners.
    So thank you, Mr. Rush. Thank you, Mr. Chairman, for having 
this hearing today. This is a step in the right direction.
    I yield back.
    Mr. Boucher. Thank you very much, Mr. Butterfield.
    We turn now to our panel of witnesses and again thank each 
of them for their attendance here this morning. Without 
objection, your prepared written statement will be made a part 
of the record and we would welcome your oral presentation. And 
in the interest of time given the large number of witnesses who 
have joined us this morning, we would ask that your oral 
statements be kept to approximately five minutes.
    I will just say a brief word of introduction about each of 
our witnesses. Mr. Frank Krogh is an attorney with the firm of 
Morrison and Foerster representing Citizens United for the 
Rehabilitation of Errants. Mr. Curtis Hopfinger is Director of 
Government and Regulatory Affairs at Securus Technologies. Mr. 
David Goad is the Sheriff of Allegany County, Maryland and 
President of the National Sheriffs' Association. And each of 
those witnesses will be testifying with respect to H.R. 1133, 
the Family Telephone Connection Protection Act.
    Testifying on the Commercial Advertisement Loudness 
Mitigation Act is Mr. Joel Kelsey, Policy Analyst at Consumers 
Union, Mr. David Donovan, President of The Association for 
Maximum Service Television and Mr. Jim Starzynski, Principal 
Engineer and Audio Architect for NBC Universal.
    Testifying on the Local Community Radio Act is Mr. Peter 
Doyle, Chief of the Audio Division of the Media Bureau of the 
Federal Communications Commission, Ms. Caroline Beasley, 
Executive Director and CFO of Beasley Broadcast Group and Ms. 
Cheryl Leanza, Policy Director of the United Church of Christ, 
Office of Communication.
    We welcome each of you and, Mr. Krogh, we will pleased to 
begin with you and you will need to turn your microphone on and 
move it as close as possible to you and we can hear you much 
better.

 STATEMENTS OF FRANK W. KROGH, ESQUIRE, MORRISON AND FOERSTER 
  LLP; CURTIS HOPFINGER, DIRECTOR OF GOVERNMENT & REGULATORY 
 AFFAIRS, SECURUS TECHNOLOGIES; DAVID GOAD, NATIONAL SHERIFFS' 
  ASSOCIATION; JOEL KELSEY, POLICY ANALYST, CONSUMERS UNION; 
 DAVID DONOVAN, PRESIDENT, THE ASSOCIATION FOR MAXIMUM SERVICE 
TELEVISION, INC., JIM STARZYNSKI, PRINCIPAL ENGINEER AND AUDIO 
 ARCHITECT, NBC UNIVERSAL, ADVANCED ENGINEERING; PETER DOYLE, 
  CHIEF, AUDIO DIVISION, MEDIA BUREAU, FEDERAL COMMUNICATIONS 
COMMISSION; CAROLINE BEASLEY, EXECUTIVE VICE PRESIDENT AND CFO, 
BEASLEY BROADCAST GROUP; AND CHERYL A. LEANZA, POLICY DIRECTOR, 
    UNITED CHURCH OF CHRIST, OFFICE OF COMMUNICATIONS, INC.

                  STATEMENT OF FRANK W. KROGH

    Mr. Krogh. Thank you for this opportunity to testify. I am 
Frank Krogh, an attorney with the firm of Morrison and Foerster 
which represents the Washington Lawyers Committee for Civil 
Rights and Urban Affairs in a proceeding before the Federal 
Communications Commission addressing prison inmates' long 
distance telephone service rates. We also have been 
coordinating closely in that proceeding with Citizens United 
for the Rehabilitation of Errants or CURE.
    Charlie and Pauline Sullivan, the co-directors of CURE, are 
here with me today and they have asked me to testify in support 
of H.R. 1133, the Family Telephone Connection Protection Act of 
2009. On behalf of CURE, I want to thank Subcommittee Chairman 
Boucher and Congressman Rush, the sponsor of H.R. 1133, for 
their leadership in trying to solve this problem of 
unaffordable inmate telephone rates.
    The long distance telephone rates charged prison inmates 
and their families are exorbitant and make it harder for 
inmates to maintain the critical family and community 
connections that are needed for their rehabilitation. H.R. 1133 
would ensure that the FCC addresses this issue forcefully.
    As Chairman Boucher and Congressman Rush explained, prison 
inmates and their families pay some of the highest long 
distance rates in the country. The problem arises from the 
bidding process to win these exclusive service contracts. The 
competing service providers generally are expected to offer 
generous commissions to the prison administrator or state 
correctional agency or the treasury for the right to provide 
the exclusive service to the facilities for the prison system. 
The winning bidder is typically the service provider that 
offers the highest commission payment not the lowest service 
rate. So then the winning bidder then has to charge excessive 
rates for the inmate calls in order to cover these huge 
commission payments of 40 to 65 percent.
    As a result, you have got these tremendous collect call 
charges often as high as $3.95 for a service charge plus a per-
minute charge of 89 cents. And I have even seen inmate collect 
rates of $4.28 plus 98 cents a minute as opposed to the typical 
rate available to residential subscribers or calling card 
customers of a few pennies per minute. At current rates, one 
hour of conversation a week can run up a monthly phone bill of 
$300 which is a huge financial burden for the innocent 
families, low-income families and loved ones receiving and 
paying for inmate collect calls. These rates deprive inmates 
and their family members of their most reasonable means, 
sometimes the only possible means of communication and strain 
the family and community rehabilitative ties that reduce 
recidivism, preserve families and ease prison tensions.
    The need to act on this issue has become widely recognized. 
The American Bar Association, the American Correctional 
Association and a report released in 2006 by a diverse national 
prison reform commission which included correctional officials, 
all recommend that inmate telephone rates be drastically 
reduced in order to reinforce family and community ties.
    Now, as Congressman Stearns pointed out, in some cases this 
commission revenue is used for prisoner welfare programs but 
that cannot justify the charging of unreasonable rates. You 
can't violate Federal Law on the grounds that the profit is 
going to charitable purposes. This is a regressive tax on some 
of the poorest people in America and this also means that these 
programs, these prisoner welfare programs are not free at all. 
They are being fully funded right now by the prisoners and 
their families. Those families and prisoners should have a 
choice of having fewer programs and more communication. I think 
if you gave them that choice, they would choose more reasonable 
telephone rates so they could communicate more. They should not 
be deprived of that choice through a regressive tax on their 
telephone calls.
    Now, H.R. 1133 confirms the need to reduce inmate telephone 
rates and would require that the FCC consider imposing maximum 
interstate inmate calling rates, a requirement that inmate 
telephone service providers offer a debit calling option which 
is cheaper than and lower cost than collect calling and a 
prohibition of commission payments. The ABA has endorsed the 
proposed legislation as have leading newspapers. Some of the 
remedies specified in H.R. 1133 are also proposed in the 
pending FCC petition filed by Martha Wright, the grandmother of 
a former prisoner, and other petitioners. The Wright 
petitioners have demonstrated that it is entirely feasible for 
interstate long distance telephone services to be provided 
profitably to prisoners at rates far below those prevailing at 
most prison facilities.
    For example, interstate inmate long distance rates in 
Florida, Missouri, Nebraska, New Hampshire and New York 
correctional facilities are way below typical interstate inmate 
rates. Before New York eliminated its 57.5 percent commission 
rate in 2007, the interstate collect rate for prisoners in New 
York correctional facilities was 16 cents a minute plus a $3 
connection charge, which is equivalent to 41 cents a minute for 
a 12-minute call. Now, with no commission payment, the rate is 
6.8 cents per minute plus $1.28 connection charge which is 
equivalent to 17.5 cents a minute for a 12-minute call.
    Michigan previously had an interstate rate equivalent to 
$1.16 per minute for a 15-minute collect or debit call. Now, 
the debit and collect rates are 12 cents and 15 cents per 
minute respectively, with no per-call charge. So it is quite 
possible to have much lower rates and have the service provided 
at a profit which the service providers are quite eager to do.
    Mr. Boucher. Mr. Krogh, let me ask if you could wrap up. 
Your time has expired.
    Mr. Krogh. Oh yes, I think that H.R. 1133 would ensure that 
the FCC consider the remedies proposed by the Wright 
petitioners at the FCC and reaffirms the FCC's authority to 
impose those remedies. The bill would therefore help bring 
about prison inmate telephone service reform and CURE urges its 
swift passage.
    Thank you for your time. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Krogh follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.001
    
    [GRAPHIC] [TIFF OMITTED] T3746A.002
    
    [GRAPHIC] [TIFF OMITTED] T3746A.003
    
    [GRAPHIC] [TIFF OMITTED] T3746A.004
    
    [GRAPHIC] [TIFF OMITTED] T3746A.005
    
    [GRAPHIC] [TIFF OMITTED] T3746A.006
    
    [GRAPHIC] [TIFF OMITTED] T3746A.007
    
    [GRAPHIC] [TIFF OMITTED] T3746A.008
    
    Mr. Boucher. Thank you very much. Thank you.
    Mr. Hopfinger.

                 STATEMENT OF CURTIS HOPFINGER

    Mr. Hopfinger. Good morning, Chairman Boucher and members 
of the committee. Thank you for inviting me to speak here today 
regarding inmate telecommunications and H.R. 1133.
    My name is Curt Hopfinger and I am the Director of 
Regulatory and Government Affairs for Securus Technologies. 
Securus is a Dallas, Texas based company that provides inmate 
telecommunications through our wholly owned subsidiaries to 
correctional institutions in 44 States. We serve approximately 
2,600 locations that include county, city and state-operated 
facilities. In addition, Securus is one of the leading 
providers and patent holders of technologies necessary to 
provide robust, reliable and above all secure inmate 
telecommunications.
    My remarks will be brief. My aim is to provide the 
committee with further contacts and information regarding this 
highly specialized industry and the role that inmate telephone 
communications providers play in assisting law enforcement in 
meeting the demands in the correctional setting.
    Today Securus is in a highly competitive industry. Today we 
compete with numerous providers of inmate telecommunication 
services for contracts with correctional authorities that are 
put out for public bid. It is not uncommon for as many as eight 
different correctional service providers to bid for the same 
contract. This bidding process which is governed by the 
procurement codes and regulations applicable to the area in 
which the correctional facility is located, forces all 
participants to present their very best menu of technologies, 
security feature and above all telephone call prices in order 
to secure a contract.
    As many law enforcement officials have explained to the FCC 
and elsewhere, the inmate telephone system is a critical tool 
for maintaining security both inside and outside the 
correctional environment. Today our industry provides law 
enforcement with a greater choice and quality of investigative 
tools than ever before.
    I will provide just one example of how inmate telephone 
systems have assisted law enforcement officials in preventing 
crime and protecting the public. My written testimony has 
another. This example comes from one of our counties that is 
served by Securus Technologies. Grant County has informed us 
that the Federal Bureau of Investigation routinely listens to 
the recordings of Grant County inmate calls to assist in 
finding Al-Qaeda terrorist cells. Thus, even at the county 
level, secure inmate calling platforms are providing the 
necessary tools for assisting in preserving homeland security.
    All of the features and services I have described above, of 
course come at a cost. In this specialized corner of the 
telecommunication's industry, those costs are large in absolute 
figures and also in terms of the proportion of revenue that 
these costs represent. The requirement to provide customized 
products to law enforcement and correctional institutions 
causes inmate telephone service providers to incur substantial 
costs. In addition, it prevents our industry from enjoying the 
real economies of scale like local exchange companies and long 
distance companies that serve the general public.
    I am pleased to tell you that in 2007, Securus began 
deploying a system called the Secure Call Platform or SCP which 
is a centralized system that requires less reliance on hardware 
and software at the correctional facility itself. Now that SCP 
has been deployed, our network efficiencies have improved and 
our calling rates have decreased significantly at several 
locations.
    I must however make it clear that SCP is neither 
appropriate or feasible at all correctional facilities. The 
multi-million dollar investment by Securus that made this new 
technology possible is however indicative of the fact that the 
industry is competitive and that law enforcement, inmates and 
families of inmates are in fact reaping the benefits.
    Having given you this brief background on inmate telephones 
and how they work and are deployed, I would like to say a few 
words about H.R. 1133. Securus is concerned that H.R. 1133 will 
have the unintended consequences of hindering competition, 
compromising security and actually decreasing the availability 
of telephone service for inmates. In brief, this legislation 
would make it more difficult for Securus and all inmate 
telephone service providers to compete, to innovate and to even 
maintain their existence in the inmate telephone service 
market.
    First, the legislation would require the FCC to set a 
federal rate cap. Securus is concerned that a federal rate cap 
would inevitably impose below cost rates for some facility 
locations and certainly for facility locations in high cost 
areas. In addition, a mandatory rate cap could leave such a 
slender margin of return that for many contracts few service 
providers could risk putting in a bid.
    Second, the legislation would impose facilities-based 
competition at the individual facility sites. This mandatory 
unbundling could require installation and maintenance of two or 
more redundant inmate calling platforms at every facility. This 
multi-provider scheme would lead to a host of administrative 
and security problems. In addition, it would increase the cost 
to the service providers and the facilities themselves. These 
increased costs would have to be recovered by those paying for 
inmate telephone calls.
    Third, the legislation would require an inmate telephone 
service provider to complete calls to persons regardless of 
whether the provider has any billing agreement with the called 
party or the called party's local carrier. I assure the 
committee that Securus and the industry as a whole are making 
great efforts to establish billing relationships with called 
parties whether through their local residence exchange carrier 
or via billing arrangements directly with the called parties. A 
federal mandate requiring the completion of all inmate calls 
however, will discourage both inmates and called parties from 
allowing Securus to setup billing relationships with them. The 
result would be an unprecedented situation in which a telephone 
company is forced to give away service for free.
    [The prepared statement of Mr. Hopfinger follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.009
    
    [GRAPHIC] [TIFF OMITTED] T3746A.010
    
    [GRAPHIC] [TIFF OMITTED] T3746A.011
    
    [GRAPHIC] [TIFF OMITTED] T3746A.012
    
    [GRAPHIC] [TIFF OMITTED] T3746A.013
    
    [GRAPHIC] [TIFF OMITTED] T3746A.014
    
    [GRAPHIC] [TIFF OMITTED] T3746A.015
    
    [GRAPHIC] [TIFF OMITTED] T3746A.016
    
    [GRAPHIC] [TIFF OMITTED] T3746A.017
    
    [GRAPHIC] [TIFF OMITTED] T3746A.018
    
    [GRAPHIC] [TIFF OMITTED] T3746A.019
    
    [GRAPHIC] [TIFF OMITTED] T3746A.020
    
    [GRAPHIC] [TIFF OMITTED] T3746A.021
    
    Mr. Boucher. Thank you, Mr. Hopfinger. Your time has 
expired. Sheriff Goad.

                    STATEMENT OF DAVID GOAD

    Sheriff Goad. Good morning, Mr. Chairman Boucher, Ranking 
Member Stearns and members of the committee.
    My name is David A. Goad and I am currently the Sheriff of 
Allegany County, Maryland and President of the National 
Sheriffs' Association. The National Sheriffs' Association 
represents 3,000 elected sheriffs across the country and more 
than 20,000 law enforcement professionals, making us one of the 
largest law enforcement associations in the nation. I am 
pleased to have the opportunity to appear before you today to 
discuss our strong opposition to H.R. 1133, the Family 
Telephone Connection Protection Act of 2009 and the negative 
and potentially dangerous effect this legislation will have on 
jails and prisons throughout the United States.
    As you may be aware, sheriffs play a unique role in the 
criminal justice system. Over 99 percent of the sheriffs are 
elected and oftentimes serve as the chief law enforcement 
officer of their respective counties. In addition to providing 
traditional policing within their respective counties, sheriffs 
also manage local jails and provide court security. 
Consequently, we have a keen understanding of the needs of the 
criminal justice system as well as our local communities we 
serve.
    Currently, over 80 percent of the nation's local jails are 
under the jurisdiction of sheriffs. While operating our 
nation's jails, sheriffs must process thousands of arrests and 
are responsible for detaining tens of thousands of inmates 
nationwide on any given day. The amount of time, effort, 
resources and funding necessary to manage these jails is quite 
substantial. Furthermore, sheriffs need to work with the 
knowledge that the safety of the public, as well as their 
deputies, is always guarded and held in the highest priority. 
Therefore, it is necessary for sheriffs to have control over 
and to have the ability to monitor the activities that 
transpire within our jails including the communication that 
inmates have with their connections outside of the facility.
    The Family Telephone Connection Protection Act of 2009 
would alter a jail's inmate telephone service procedures and 
amend the Communications Act of 1934 to require the FCC to 
prescribe rules regulating inmate telephone service. While the 
bill requires that these regulations do not jeopardize 
``legitimate security and penological interests,'' it indicates 
that a reduction or elimination of revenue derived by 
corrections institutions from the receipt of commissions does 
not constitute jeopardizing or affecting legitimate security 
standards or penological interests. H.R. 1133 also indicates 
that no provider or inmate telephone services may block or 
refuse to carry a call placed by an inmate on the grounds that 
the provider has no contractual or other arrangement with the 
local carrier servicing the call recipient.
    The National Sheriffs' Association believes that this 
legislation would severely hamper the ability of all the 
sheriffs and law enforcement officials to effectively manage 
our nation's jails. Under H.R. 1133, correctional institutions 
would be required to provide inmates with a choice of carriers 
while placing telephone calls. This proposal would amount to 
nothing less than the complete dismantling of the existing 
system of inmate phone service.
    Under the current system one inmate phone service provider 
is contractually committed to monitoring and of course control 
inmate calling for security and law enforcement purposes. 
Carrier choice would cause the facility to lose control over 
the monitoring and tracking of inmate calling which frequently 
results in criminal activity and massive fraud. Moreover, 
carrier choice would severely hamper the provider's ability to 
assist law enforcement officials with ongoing criminal 
investigations and of course to monitor the phone calls of 
suspected terrorists.
    These are dangerous individuals who will continue to 
conduct criminal activities and operations on the outside via 
phone while they are incarcerated in local jails. Such 
activities could also include threats against any testifying 
witness or against any law enforcement personnel and their 
families. Consequently, the inability to monitor such calls 
could have a detrimental and potentially deadly impact. It 
could place unsuspecting individuals in danger and could 
prevent witnesses from coming forward to testify. Therefore, 
sheriffs' ability to easily and effectively monitor inmate 
telephone calls not only assists law enforcement in criminal 
investigations but significantly reduces the harm to law-
abiding citizens throughout the community.
    During the 110th Congress and in the current 111th 
Congress, there has been strong emphasis on rehabilitating 
incarcerated offenders and ensuring their successful reentries 
into society. Local jails are attempting these efforts. However 
as sheriffs' offices budgets have been significantly reduced or 
tightened in recent years, sheriffs have been unable to utilize 
funding for anything other than personnel and necessary 
equipment and technology. Therefore, sheriffs rely on various 
services such as inmate telephone commissions to bring in 
revenue to fund and operate jailhouse treatment, rehabilitation 
and reentry programs.
    I would like to interject a few examples such as in the 
State of Maryland that has to do with this revenue advantage. 
As correctional administrators we realize a significant funding 
loss. My facility which is a 225-bed facility in Western 
Maryland has realized approximately $64,000 a year, other 
facilities such as Harford County, $170,000 and Washington 
County in the State of Maryland approximately $134,000 in lost 
revenue. Funds generated from commissions on inmate telephones 
are not a source of income for correctional administrators as 
we are only allowed to spend such funds on matters related to 
inmate welfare providing undergarments, socks and so on for 
inmates and so on. I would add that these commissions on phone 
calls are not unlike a sales tax. In this instance, the 
proceeds are entirely devoted to the betterment of the citizen 
population and in this instance, it is our inmates. I further 
wish to state that cutting such funds will have a negative 
effect on inmates in every correctional facility across the 
United States.
    Sheriffs recognize that maintenance of communications with 
family is a positive influence for the inmate's integration 
back into the larger society after release. As such, the 
National Sheriff's Association endorses fair and reasonable 
rates for inmate calls and would expect all sheriffs to require 
service providers to adhere to FCC rate guidelines. 
Furthermore, the National Sheriffs' Association continues to be 
an advocate for reentry initiatives proposed by Congress. 
However, we strongly oppose the proposals within H.R. 1133 as 
they would compromise public safety, put additional burdens on 
taxpayers and force correctional institutions to eliminate 
reentry programs and access to telephones for inmates.
    Mr. Boucher. Sheriff Goad, thank you.
    Sheriff Goad. I would like to thank you for the opportunity 
to be here today.
    [The prepared statement of Mr. Goad follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.022
    
    [GRAPHIC] [TIFF OMITTED] T3746A.023
    
    [GRAPHIC] [TIFF OMITTED] T3746A.024
    
    [GRAPHIC] [TIFF OMITTED] T3746A.025
    
    [GRAPHIC] [TIFF OMITTED] T3746A.026
    
    Mr. Boucher. Thank you, Sheriff Goad. Mr. Kelsey.

                    STATEMENT OF JOEL KELSEY

    Mr. Kelsey. Chairman Boucher, Ranking Member Stearns and 
esteemed members of the committee, thank you for the 
opportunity to testify before you for the first time today on 
behalf of Consumers Union, the nonprofit publisher of Consumer 
Reports.
    While I am here to offer consumer viewpoints on H.R. 1084, 
the CALM Act, I would be remiss if I did not also take this 
opportunity to highlight Consumers Union's support of the Local 
Community Radio Act. The current cost of starting up an FM 
radio station is close to $2.5 million dollars. This financial 
hurdle often places the station licenses outside of the reach 
of local hands at a time when consumers are craving more local 
information then ever before. Efforts to support the LPFM bill 
are efforts to support the families, workers and places of 
worship that are the anchors in our communities.
    The CALM Act, introduced by Representative Eshoo, addresses 
a widespread consumer complaint, the abrupt loudness of 
television advertisements. Representative Eshoo's legislation 
will go a long way towards preventing advertisements from 
screaming at consumers in their own living rooms. Specifically, 
the Act would enable the Federal Communications Commission to 
monitor the volume of advertisements in television programming 
and determine acceptable levels. This would ensure that the 
volume levels of commercial breaks are consistent with the 
volume level of the programming which it brackets.
    For years consumers have noticed that when a television 
program cuts to commercial breaks, the volume of the television 
suddenly rises to a shout, far beyond the average level of the 
television program it follows. We have often wondered are 
advertisers trying to scare us into remembering the names of 
their products.
     This abrupt, sometimes shocking change in volume during 
advertisements is not a new phenomenon. In fact, consumer 
complaints about loud commercials began streaming into the FCC 
in the 1960s. At that point, the agency contended that there 
was no way to measure the volume level of commercials but did 
conclude loud commercials were contrary to the public interest 
and should be avoided. Throughout the next two decades, the 
Commission launched several fact-finding proceedings, 
ultimately concluding that although technology to measure the 
volume of commercials now exists, the perceived loudness of 
commercials is subjective and would vary from listener to 
listener. In 1984, the FCC commented, ``As more is learned 
about loudness, it is likely that more sophisticated control 
devices will be developed and used by broadcasters. Such 
actions should begin to eliminate complaints of objectionable 
loudness.''
    25 years later, complaints continue to flood the 
Commission. In fact, in the 25 quarterly reports that the FCC 
releases on consumer complaints, 21 of them have listed 
complaints about loud commercials as among the top consumer 
grievances in radio and television broadcasting. We believe 
this widespread consumer issue, which has spanned 45 years is a 
result of more that just the arbitrary or subjective perception 
of consumers. Rather, it is a real consumer grievance that 
deserves a new approach in the new era of digital broadcasting.
    The current FCC guidance regarding loud commercials mostly 
points consumers towards equipment that they can purchase to 
stabilize the volume during transition to commercials. However, 
not every consumer can afford to purchase TV sets with smart 
sound nor should they have to. Advertisers simply do not have 
the right to scream at consumers in their own living rooms and 
consumers should not have to pay to experience peace and quiet 
in the sanctity of their own home.
    There are several complexities that accompany this action 
by the agency. In particular, there are differences in the 
compressed audio levels of television shows and commercials. 
While the audio of a television show usually matches natural 
sound more closely, the audio of a commercial has less 
distinction between loud and soft sounds resulting in 
everything seeming much louder. We recommend the FCC focus in 
on this question in particular and develop an approach that is 
consistent with the 1979 Notice of Inquiry. In that Notice, the 
agency concedes that a dynamic range of volume is desirable 
with regard to broadcasting but at some point the amount of 
deviation from that average audio level begins to conflict with 
the public's sensibilities.
    Placing a national standard on the loudness of commercials 
in not without an international precedent. In fact, the Library 
of Congress has noted that legislation addressing this matter 
has already been adopted in Australia, Brazil, France, Israel, 
Russia and the United Kingdom. In addition, the International 
Telecommunications Union has adopted standards that offer 
guidance to measure the audio levels of different programs.
    In conclusion, the CALM Act provides an elegant and 
commonsense solution to finally ending a 45-year consumer 
complaint in the United States. Consumers Union endorses the 
CALM Act as a solid step towards protecting consumers from 
unduly loud commercial advertisement, commends Representative 
Eshoo for championing this legislation and urges lawmakers to 
bring this measure forward.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Kelsey follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.027
    
    [GRAPHIC] [TIFF OMITTED] T3746A.028
    
    [GRAPHIC] [TIFF OMITTED] T3746A.029
    
    [GRAPHIC] [TIFF OMITTED] T3746A.030
    
    [GRAPHIC] [TIFF OMITTED] T3746A.031
    
    Mr. Boucher. Thank you, Mr. Kelsey. Mr. Donovan.

                 STATEMENT OF DAVID L. DONOVAN

    Mr. Donovan. Thank you, Chairman Boucher, Ranking Member 
Stearns and members of the subcommittee for the opportunity 
today regarding broadcasters efforts to resolve variations in 
volume between regular programming and commercials in digital 
television. And I also want to thank Representative Eshoo for 
the introduction of the CALM Act.
    MSTV is a nonprofit trade association representing 
television broadcast stations across the country. In effect, we 
are the engineering arm of the television broadcast industry 
and our mission is to ensure that American consumers have the 
highest quality, interference-free local television. We have 
been actively involved in the digital television transition 
since the 1980s. Working with the FCC, we helped develop the 
digital TV table of allotments. We helped design the digital 
converter box that is the backbone of the transition and we 
have also been actively involved in dealing with the question 
of loud commercials.
    At the outset, MSTV and the broadcast industry want the 
committee to understand that we fully recognize the problem. We 
get it. The future of our business, of digital television in 
particular depends in part, depends in large measure on 
consumer satisfaction. Unexpected changes in volume can ignore 
consumers and disrupt the viewing experience. The television 
broadcast industry has every interest in ensuring in the 
digital age that consumers are not subject to such 
frustrations. As a matter of pure economics, we do not want to 
lose viewers. Our revenue depends on viewers watching programs 
and commercials. If viewers skip advertisements or shut off 
their television altogether, we lost revenue.
    To this end, I think there is one important element why 
digital is different from analog and it is extremely important. 
The Advanced Television Systems Committee standard employs a 
Dolby 5.1 digital sound system. The dynamic range of the 
system, i.e., the highs and the lows of volume allows for 
theater-quality sound. In fact, digital television has more 
than two times the dynamic range of an average analog 
television set. Consumers who have purchased large screen 
television sets in digital now expect the in-home theater 
experience. Thus, when developing a solution for loud 
commercials, it is important not to impair the audio range of 
those sets that have been purchased.
    In many respects you now have motion picture production 
sound quality in the living room. Unfortunately, the noise in 
most of our living rooms have not changed over the years so you 
want to make sure you can enjoy the programs without having 
problems with the loud commercials.
    And the industry has made significant progress together and 
let me just talk about two things in the context of digital. 
First, the technical parameters are established by our primary 
programming providers. In this regard, the major television 
broadcast networks in effect help create a norm for the entire 
industry and ABC, NBC, CBS and FOX have each individually 
implemented policies in the context of digital, policies to 
attempt to control loud commercials in the context of digital 
television.
    Moreover, the entire industry including ABC, NBC, CBS, FOX, 
all local stations began addressing this issue back in 2007 
when the ATSC established the digital loudness subgroup. Now, 
Jim Starzynski, who has worked on that extensively, will go 
into detail. Let me just say here that the progress of that 
subgroup has been remarkable. In many respects, it has resolved 
more issues in the last two years then the government was able 
to solve in decades and we are now on the cusp of resolving 
this issue. Importantly, when ATSC adopts its recommended 
practice it will have the salutary effect of providing guidance 
for all local televisions for local advertising, local 
programming, syndicated programming, national spot but also 
influence both cable and satellite systems which have similar 
technologies.
    I would ask the committee to consider just one word of 
caution. This system has been worked on now for nearly two 
years. Engineers by and large are problem solvers. That is what 
they do and we are on the cusp of resolving this issue. Our 
concern with the bill if enacted will send to the FCC for one 
year and require a resolution within one year, in effect it 
creates or may create a jump ball in which once the lawyers get 
involved, you end up starting the process over in the context 
of a regulatory environment. And this may have the unintended 
consequence of actually delaying a solution rather than 
fostering it. Nonetheless, we think the bill is important. 
Certainly the bill has focused our attentions and helped 
accelerate the process but we are concerned that there may be 
some unintended consequences here.
    Mr. Chairman, I want to thank you for the opportunity to 
testify before you today and I want to thank Representative 
Eshoo for sponsoring the bill and I am prepared to answer any 
questions you may have.
    [The prepared statement of Mr. Donovan follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.032
    
    [GRAPHIC] [TIFF OMITTED] T3746A.033
    
    [GRAPHIC] [TIFF OMITTED] T3746A.034
    
    [GRAPHIC] [TIFF OMITTED] T3746A.035
    
    [GRAPHIC] [TIFF OMITTED] T3746A.036
    
    [GRAPHIC] [TIFF OMITTED] T3746A.037
    
    [GRAPHIC] [TIFF OMITTED] T3746A.038
    
    [GRAPHIC] [TIFF OMITTED] T3746A.039
    
    [GRAPHIC] [TIFF OMITTED] T3746A.040
    
    [GRAPHIC] [TIFF OMITTED] T3746A.041
    
    [GRAPHIC] [TIFF OMITTED] T3746A.042
    
    [GRAPHIC] [TIFF OMITTED] T3746A.043
    
    Mr. Boucher. Thank you very much, Mr. Donovan. Mr. 
Starzynski.

                  STATEMENT OF JIM STARZYNSKI

    Mr. Starzynski. Mr. Chairman and Ranking Member Stearns, 
thank you for inviting me to testify in H.R. 1084 and for the 
opportunity to discuss how NBC Universal and the TV industry 
generally are addressing the TV loudness issue.
    I am here today representing NBC Universal, which I serve 
as principal engineer and audio architect. I have been working 
in the TV industry for 25 years and have focused on digital TV 
for the past 12. I also serve as chairman of the subgroup on 
digital television loudness within the advanced television 
systems committee, the technical standard organization for over 
the air digital TV.
    Though digital TV greatly enhances audio quality, if not 
properly managed it also creates the opportunity for excessive 
variations in loudness. This can be especially apparent when 
transitioning from programs to commercials. The TV understands 
and shares the concerns about variations in volume levels. We 
want to give our audience the best possible listening 
experience and we know that experience is not currently 
optimal. Congress has also heightened our awareness of the 
problem and helped galvanize industry action on this issue. As 
a result, we have invested significant effort and resources in 
voluntary action to address the situation. This hearing is 
especially timely because we are on the cusp of offering a 
solution.
    Our experience at NBC Universal provides an example of a 
possible solution. Early on we recognized that the digital 
transition would require a culture change in our management of 
audio programs and commercials. Whether produced internally or 
obtained from outside suppliers, TV programs and commercials 
come from hundreds of different sources. The sheer number and 
diversity of program sources contribute to uneven volume levels 
unless properly managed. Thus, our goal of providing a cinema-
quality sound experience also created a risk of excessive 
variation. Fortunately, the ATSC's current digital standard as 
adopted by the FCC incorporates the necessary technology to 
eliminate variation in loudness during program to commercial 
transitions. And although the ATSC standard generally applies 
only to over-the-air broadcasting, the standards and 
technologies used by cable, satellite and telecom operators are 
all closely related. Therefore, NBC Universal required our in-
house productions, external show suppliers and advertising 
customers to provide soundtracks compatible with our in-place 
ATSC audio practices. We require all of our content to be 
produced and delivered at a consistent loudness and we set our 
broadcast equipment to properly operate at this loudness level. 
These practices are generally sufficient to ensure consistent 
audio level across NBC programs and networks.
    To address content delivered with loudness outside the 
range of our spec, WNBC-DT in New York is about to test new 
technology that will automatically normalize the loudness 
levels. This technology simply adjusts the volume of disparate 
content before transmission much like adjusting the sound with 
a remote control at home. If successful, if the test if 
successful at WNBC, we plan to apply the technology to all NBCU 
television services.
    Now, let me discuss the broader issue and the industry 
status. In April of 2007, the ATSC recognized that the emerging 
digital TV loudness problem deserved more attention across the 
industry so it created the ATSC subgroup that I chair which is 
DTV loudness experts from all over the major broadcast networks 
as well as cable, production and postproduction, manufacturing 
and education.
    Our goal was to identify the impediments to providing good 
DTV audio at consistent volume levels, then discuss and 
document solutions for those problems. This process ultimately 
led to the development of a recommended practice which 
addresses five areas concerned and those areas are the first, 
contemporary sound measurement. The second, establishing the 
correct sound monitoring environment. The third is an 
explanation of how to properly manage DTV's metadata element. 
The fourth is management of dynamic range and the fifth, 
methods to effectively control program-to-interstitial loudness 
or programs to commercials.
    This recommended practice is a comprehensive, effective and 
easy-to-read resource that covers all issues from content 
creation through distribution and transmission to the consumer 
experience. This ATSC recommended practice can become the 
roadmap for all TV professionals, no matter their industry 
segment or level of technical sophistication.
    In terms of timing, the ATSC recommended practice is in 
final review by the audio experts group and scheduled for 
submission to our parent group in July on the 22nd with release 
of a final document anticipated for September. After release of 
the finished recommended practice, the industry will be well-
positioned to resolve concerns over TV loudness.
    Because the industry is on the cusp of taking action to 
address TV loudness concerns, legislation on this matter is, 
for the moment, inadvisable. Legislation may slow or stall 
widespread implementation of the recommended practice while the 
industry waits for Congressional and subsequent agency action. 
Further legislation might result in sub-optimal technical 
solution or require adherence to a technical standard that has 
already become obsolete.
    I understand a self-regulatory approach may not provide 
some with the same level of assurance as a legislative solution 
however I can assure you that the industry is motivated to act.
    Once again, thanks for inviting me to address this issue. I 
would be happy to take your questions.
    [The prepared statement of Mr. Starzynski follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.044
    
    [GRAPHIC] [TIFF OMITTED] T3746A.045
    
    [GRAPHIC] [TIFF OMITTED] T3746A.046
    
    [GRAPHIC] [TIFF OMITTED] T3746A.047
    
    [GRAPHIC] [TIFF OMITTED] T3746A.048
    
    [GRAPHIC] [TIFF OMITTED] T3746A.049
    
    [GRAPHIC] [TIFF OMITTED] T3746A.050
    
    [GRAPHIC] [TIFF OMITTED] T3746A.051
    
    [GRAPHIC] [TIFF OMITTED] T3746A.052
    
    Mr. Boucher. Thank you, Mr. Starzynski.
    Mr. Starzynski. Thank you.
    Mr. Boucher. Mr. Doyle.

                  STATEMENT OF PETER H. DOYLE

    Mr. Doyle. Good morning, Chairman Boucher, Ranking Member 
Stearns and members of the subcommittee. Thank you for the 
opportunity to appear before you today.
    I am Peter Doyle and I will be presenting testimony on 
behalf of the Federal Communications Commission. I am chief of 
the media bureau's audio division. My staff and I are 
responsible for all terrestrial radio broadcast station 
licensing.
    The Commission authorized the low-power FM radio service in 
January 2000. In establishing the first new radio station in 
more than 30 years, the Commission sought to respond to a broad 
and deep interest in creating outlets for highly local radio 
stations grounded in their communities. 859 LPFM stations are 
currently licensed and operating.
    The Commission initially declined to adopt third-adjacent 
channel minimum distance separation requirements. They 
concluded that such requirements would unnecessarily restrict 
the number of LPFM stations and would not cause unacceptable 
levels of interference.
    In December 2000, Congress passed the 2001 DC 
Appropriations Act, legislation which directed the Commission 
to impose third-adjacent channel protection requirements. The 
media bureau thereafter dismissed 462 applications which could 
not be amended to comply with the Act's spacing requirements.
    In accordance with the Act, the Commission selected the 
Mitre Corporation to conduct interference tests. Mitre 
delivered its Phase I Report in June 2003. Mitre substantially 
agreed with the Commission's conclusions finding that third-
adjacent channel LPFM transmissions would have little impact on 
incumbent full-power stations. In February 2004, the Commission 
submitted its report to Congress and recommended that Congress 
eliminate LPFM third-adjacent channel requirements.
    I would like to make two specific comments about the Local 
Community Radio Act. First, the Commission's FM translator 
licensing experience, since the delivery of the 2004 report 
further confirms the agency's initial determination that LPFM 
stations would not cause unacceptable levels of interference. 
The FM translator service has by far the most flexible rules to 
engineer in a low-power FM station in a mature radio market. 
These rules permit an FM translator to co-locate with a third-
adjacent channel full-power station on the basis of a 
Commission approved, no actual interference methodology.
    On the other hand, a translator station must cease 
operations if a single listener complaint of actual 
interference remains unresolved. Since 2004, the audio division 
has granted approximately 4,400 new translator station licenses 
with approximately 1,800 of these relying on a no-actual 
interference processing standard with regard to a nearby or co-
located second or third-adjacent channel station, a perfect, 
real world test of the Commission's FM interference prediction 
methodology.
    There has been no discernable increase in interference 
complaints during this licensing process, a substantial 
vindication of the Commission's technical conclusions. 
Accordingly, we remain confident that the impact from LPFM 
stations which generally operate at lower power levels then 
translator stations would be extremely modest.
    The second point I would like to make is that the failure 
to repeal current third-adjacent channel requirements could 
significantly restrict the future growth of the LPFM service. 
In 2007, the Commission announced a processing policy to 
consider second-adjacent channel spacing waivers from LPFM 
stations at risk of displacement from encroaching full-power 
stations. Last Friday, the U.S. Court of Appeals denied the 
Broadcasters challenge to this processing policy thereby saving 
approximately 40 stations at risk of displacement. Enactment of 
H.R. 1147 would permit the Commission to expand this processing 
policy to permit third-adjacent channel waivers.
    The audio division currently anticipates enormous applicant 
interest in the next LPFM window. It is difficult to develop 
definitive projections regarding the preclusive impact of the 
2001 DC Appropriations Act with both applicant demand and 
supply unknown until an LPFM window opens. Nevertheless, the 
audio division has done some research and has reached a few 
general conclusions. Beginning with cities of approximately 
500,000 or less, our analysis shows that current requirements 
materially limit channels for LPFM stations sometimes for 
closing use of the only channel or channels otherwise available 
for LPFM use. Channels would be widely available for 
communities of less than 50,000 if current spacing requirements 
were eliminated.
    The Commission's extensive experience in FM translator 
licensing refutes the claim that elimination of third-adjacent 
channel protection requirements would result in pervasive 
interference. The Commission has twice unanimously requested 
that Congress lift these restrictions. As chief of the audio 
division and on behalf of the division's expert engineers who 
prudently safeguard the technical integrity of the radio 
spectrum and who are responsible for ensuring interference-free 
service by over 16,000 FM stations daily, I wholeheartedly 
support that request.
    Thank you for the opportunity to testify today. I would be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Doyle follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.053
    
    [GRAPHIC] [TIFF OMITTED] T3746A.054
    
    [GRAPHIC] [TIFF OMITTED] T3746A.055
    
    [GRAPHIC] [TIFF OMITTED] T3746A.056
    
    [GRAPHIC] [TIFF OMITTED] T3746A.057
    
    [GRAPHIC] [TIFF OMITTED] T3746A.058
    
    [GRAPHIC] [TIFF OMITTED] T3746A.059
    
    [GRAPHIC] [TIFF OMITTED] T3746A.060
    
    [GRAPHIC] [TIFF OMITTED] T3746A.061
    
    [GRAPHIC] [TIFF OMITTED] T3746A.062
    
    Mr. Boucher. Thank you, Mr. Doyle. Ms. Beasley.

                 STATEMENT OF CAROLINE BEASLEY

    Ms. Beasley. Good morning, Chairman Boucher, Ranking Member 
Stearns and subcommittee members.
    My name is Caroline Beasley. I am the executive vice 
president and chief financial officer of the Beasley Broadcast 
Group, a family-owned company which owns and operates 44 radio 
stations in 11 markets. I am testifying today on behalf of the 
National Association of Broadcasters where I serve as vice 
chair of the NAB radio board.
    My main message today is that full-power FM stations and 
low-power FM stations can coexist. There is a role for each to 
play within their communities and there is a process in place 
to continue licensing LPFM at the FCC. That being said, it is 
important to maintain interference guidelines that protect 
listeners to both services.
    The hallmark of full-power radio broadcasting is service to 
our communities. Broadcasters provide unequaled community 
service and contribute millions of dollars locally through 
direct fundraising, charitable giving and donated airtime. We 
air a wide range of music and entertainment, provide local 
news, act as a lifeline in times of crisis, heighten awareness 
of important issues and inform voters. In times of emergencies, 
local radio broadcasters rise to the occasion. Local 
broadcasters will break from regular programming and stay on 
the air to reach the public and share essential information.
    In 2008, as the wildfire ravaged southwest Florida, Beasley 
responded as five of our stations helped raise funds for 
families that lost homes. When an explosion occurred at a sugar 
refinery in Georgia, a neighboring Beasley station acted as a 
communications center between the public and officials dealing 
with the disaster. The station was flooded with offers of help 
and assistance for victims of the explosion. Listeners have 
come to expect this involvement from their local broadcasters 
and we will always be there for them.
    In serving our local communities, broadcasters are 
concerned about interference. Simply, a listener that 
experiences interference is a lost listener, one who will 
change the channel and stop tuning in. This is a person we may 
not reach at a critical time during an emergency. The 
engineering study commissioned by the FCC and the subsequent 
recommendations to Congress address the subject of 
interference. The common perception of the report is that 
interference is simply not a problem and the policy should be 
changed. The study however showed that interference did in fact 
result from an LPFM station operating on a third-adjacent 
channel. At various test sites, significant degradation was 
found during listening. Some full-power FM programs had static. 
Some were not heard at all and at others time a different 
program could be heard in the background. These factors were 
not present when the LPFM test station was turned off but 
subsequently occurred when the LPFM station was turned on.
    In view of these findings, the study recommended 
consideration of a formula or a way in which to mitigate the 
interference. The NAB's analysis was that harmful interference 
would be far more prevalent then the government's report and 
our objections to that report were documented at length. 
Moreover, it is significant to note that even the government's 
commission report did not recommend a wholesale elimination of 
third-adjacent channel protection. There is a process in place 
at the FCC for approving low-power FMs and to date, 865 
stations have been licenses. Under existing rules, there is 
also a great deal of capacity remaining for the licensing of 
additional low-power FM stations. Nationwide, there is room for 
tens of thousands of additional LPFMs. This is possible under 
the existing third adjacent channel protection policy. 
Interference is a real concern for local broadcasters and 
buffer protections are necessary and make sense.
    Any policy discussion to remove third adjacent channel 
protection, should carefully balance interference risks to both 
full-power and low-power FM services. Even with third adjacent 
protections in place, there are examples of harmful 
interference caused by LPFM, stations that are not adhering to 
existing technical regulations. Enforcement remains an issue 
and increasing the chance of interference through a policy 
change affects all listeners and may increase the likelihood of 
a lost listener at a time of need or emergencies.
    Thank you, Mr. Chairman, for the opportunity to testify and 
thank you, Mr. Doyle, for the chance to discuss your 
legislation. I appreciate your interest in providing greater 
opportunity and diversity in radio and I hope we can work 
together to further that goal.
    [The prepared statement of Ms. Beasley follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.063
    
    [GRAPHIC] [TIFF OMITTED] T3746A.064
    
    [GRAPHIC] [TIFF OMITTED] T3746A.065
    
    [GRAPHIC] [TIFF OMITTED] T3746A.066
    
    [GRAPHIC] [TIFF OMITTED] T3746A.067
    
    [GRAPHIC] [TIFF OMITTED] T3746A.068
    
    [GRAPHIC] [TIFF OMITTED] T3746A.069
    
    [GRAPHIC] [TIFF OMITTED] T3746A.070
    
    [GRAPHIC] [TIFF OMITTED] T3746A.071
    
    [GRAPHIC] [TIFF OMITTED] T3746A.072
    
    [GRAPHIC] [TIFF OMITTED] T3746A.073
    
    [GRAPHIC] [TIFF OMITTED] T3746A.074
    
    [GRAPHIC] [TIFF OMITTED] T3746A.075
    
    [GRAPHIC] [TIFF OMITTED] T3746A.076
    
    [GRAPHIC] [TIFF OMITTED] T3746A.077
    
    [GRAPHIC] [TIFF OMITTED] T3746A.078
    
    [GRAPHIC] [TIFF OMITTED] T3746A.079
    
    [GRAPHIC] [TIFF OMITTED] T3746A.080
    
    [GRAPHIC] [TIFF OMITTED] T3746A.081
    
    [GRAPHIC] [TIFF OMITTED] T3746A.082
    
    [GRAPHIC] [TIFF OMITTED] T3746A.083
    
    [GRAPHIC] [TIFF OMITTED] T3746A.084
    
    [GRAPHIC] [TIFF OMITTED] T3746A.085
    
    [GRAPHIC] [TIFF OMITTED] T3746A.086
    
    Mr. Boucher. Thank you very much, Ms. Beasley. Ms. Leanza.

                 STATEMENT OF CHERYL A. LEANZA

    Ms. Leanza. Thank you. Good morning, everyone. Thank you 
for keeping your attention on this long, long panel. I really 
appreciate your time. I know it is a lot of information and I 
am going to try to be brief and hopefully interesting for you. 
I want to thank Chairman Boucher and Ranking Member Stearns and 
members of the subcommittee.
    And I am here today to support the Local Community Radio 
Act of 2009, H.R. 1147. First, I want to extend my sincere 
gratitude to Congressman Doyle and Congressman Terry for their 
leadership on this issue, as well as the bipartisan group of 
legislators on this subcommittee for bringing this issue 
forward. In particular, as a quick side note want to articulate 
UCC support for the other bills that are being considered this 
morning and I have a letter with me today from 20 media justice 
organizations in support of Congressman Rush's bill.
    But I am here to talk about low-power radio. I am going to 
describe the service. I am going to describe the problem. I am 
going to give you a couple of examples. I am going to hit the 
technology for a little bit and hopefully we will get out of 
here with time to spare, at least in my five minutes, right.
    So what is low-power radio? They are small FM stations. 
They are 100 watts. They reach five to seven miles in diameter. 
They are really small. They fit in between the cracks and they 
use spectrum that is not used right now.
    We do have 800 stations on the dial. We know something 
about them and there are an incredible diversity of stations. I 
couldn't begin to describe them all to you today but encourage 
you to look at my written testimony and go back into your home 
districts and find out about what is going on there because it 
really is incredible.
    But as I said, we are not here today about the stations 
that are on the air. We are about the people who are left 
behind because although we have 800 stations on the air, there 
is one station in the top 50 markets in this country. That is 
140 million people that have virtually no opportunity to hear 
about low-power radio. Hundreds and thousands of organizations 
are waiting, waiting for Congress to act, waiting for this bill 
to pass. Organizations like Southwest Virginia Community 
College that submitted an application to the FCC. Everything 
was 100 percent right. The previous legislation passed and 
their hopes were smashed away.
    In contrast, if we pass this legislation, just about every 
community in this country would get three or four LPFM 
stations. They are all waiting for Congress to act to pass this 
bill.
    So there are a lot of stories I could tell you about low-
power radio but since it is June and it is the beginning of 
hurricane season, I am going to talk a little bit about some 
good examples. I want to assure you that although I don't know 
who is going to win the hockey finals this season, that LPFM 
radio is going to win the Stanley Cup overall.
    Let me give you some examples, Coalition of Immokalee 
Workers is in central Florida. During Hurricane Wilma they 
saved almost 300 people through their broadcast. What is 
different about this radio station? They don't just broadcast 
in Spanish. They broadcast in indigenous languages like Mixe 
and Zapotec. This is not stuff you hear on the radio now. When 
you get information in your native language, it is much easier 
to respond in an emergency.
    Similarly in Hancock County, Mississippi, during Hurricane 
Katrina, QRZ was able to stay on the air. Why? They were small 
enough they could pick up the transmitter, move it to higher 
ground and operate the entire time using a car battery. That 
doesn't happen with regular full-power radio.
    Finally, I want to tell you about somewhere that they wish 
they had low-power radio, Citrus County, Florida. During 
Hurricane Frances, they were desperate for information, local 
information. Well certainly, there was a lot of information on 
the radio about Hurricane Frances in that region. It was all 
emanating out of Tampa and directed towards Tampa. The Citrus 
County officials were so desperate for attention that they 
actually announced in 2004 they were going to try to get a low-
power radio station but they are still waiting. Congress needs 
to act.
    So I need to spend about 60 seconds to make three points 
about the technical issues about low-power radio because you 
keep hearing this is a great service. It is a great idea but 
there are technical problems. I understand that. I understand 
the desire to study but let me make a few points to you.
    First, we know low-power radio is safe because there are 
thousands of translator stations on the air now run by full-
power broadcasters that are the same size, the same distance 
apart, exactly the same. In fact, some of them are closer than 
low-power radio stations and they are working fine. Mr. Doyle 
said it in technical terms. I am telling you in layman's terms, 
these are the same. They are on the air. They don't cause 
interference. The only difference between those stations and 
LPFM is who owns them. Are they a member of the NAB or are they 
not?
    My second point, we have a 2.2 million Congressionally-
ordered independent study. Not a government study, not a 
private sector study, an independent study. It confirms all of 
the analysis of many other studies that have come before it. I 
need to say to you today, one of the organizations that I am 
representing is the National Federation of Community 
Broadcasters. They are 200 full-power, noncommercial 
broadcasters on the air. The organization is 25 years old. They 
support this service. They support the legislation. They care 
incredibly about signal integrity. They would not be here today 
supporting this legislation if there was a danger to the 
service.
    Finally, I need to point out to you that incumbents do not 
have a sterling track record when it comes to technical 
questions about new entrants, whether it was an AM radio 
broadcaster trying to keep out that newfangled FM service in 
the 1930s or it was Ma Bell telling you that it was absolutely 
impossible for you to buy a telephone in the store and hook it 
up to the network without causing the entire network to fall 
down. Incumbents protect their territory and this situation is 
no different. We can certainly study the issue to death and we 
can study it more. We can create an entire stimulus package for 
just studying this issue but thousands of stations, thousands 
of applicants around the country have been waiting and waiting 
and we have put a lot of resources into it and we know the 
answer. The record is clear.
    So in closing, I want to share a quick experience with you, 
one of my favorite parts of working on low-power radio. I often 
get the chance to ask people, what would you do if you had a 
radio station? What would it sound like if your community were 
in control and all of a sudden their eyes light up because the 
wheels in their head are turning. Oh my gosh, we would 
broadcast the local high school football game. We would find 
out what exactly is going on at city council or the school 
board and what about that river on the other side of the 
county? Is that safe? Can my kids walk in it and wade in it? 
And the music, the band down the corner that they just heard 
for the first time that they're sure is going to make it, the 
cherished songs from the homeland that they like to share with 
their children and their grandchildren. There is nothing like 
this on radio today.
    So I am bringing with you a potent example of why this 
service is so popular. These are 20,000 signatures. The public 
interest community has collected 20,000 signatures only since 
the end of February, since this legislation was introduced this 
year. This is just the tip of the iceberg. These 20,000 people 
are asking you all to move this legislation ahead and I hope 
that you will listen to them.
    Thank you for your time and I look forward to answering 
your questions.
    [The prepared statement of Ms. Leanza follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.087
    
    [GRAPHIC] [TIFF OMITTED] T3746A.088
    
    [GRAPHIC] [TIFF OMITTED] T3746A.089
    
    [GRAPHIC] [TIFF OMITTED] T3746A.090
    
    [GRAPHIC] [TIFF OMITTED] T3746A.091
    
    [GRAPHIC] [TIFF OMITTED] T3746A.092
    
    [GRAPHIC] [TIFF OMITTED] T3746A.093
    
    [GRAPHIC] [TIFF OMITTED] T3746A.094
    
    [GRAPHIC] [TIFF OMITTED] T3746A.095
    
    [GRAPHIC] [TIFF OMITTED] T3746A.096
    
    [GRAPHIC] [TIFF OMITTED] T3746A.097
    
    [GRAPHIC] [TIFF OMITTED] T3746A.098
    
    [GRAPHIC] [TIFF OMITTED] T3746A.099
    
    [GRAPHIC] [TIFF OMITTED] T3746A.100
    
    [GRAPHIC] [TIFF OMITTED] T3746A.101
    
    [GRAPHIC] [TIFF OMITTED] T3746A.102
    
    [GRAPHIC] [TIFF OMITTED] T3746A.103
    
    [GRAPHIC] [TIFF OMITTED] T3746A.104
    
    [GRAPHIC] [TIFF OMITTED] T3746A.105
    
    [GRAPHIC] [TIFF OMITTED] T3746A.106
    
    [GRAPHIC] [TIFF OMITTED] T3746A.107
    
    [GRAPHIC] [TIFF OMITTED] T3746A.108
    
    [GRAPHIC] [TIFF OMITTED] T3746A.109
    
    [GRAPHIC] [TIFF OMITTED] T3746A.110
    
    [GRAPHIC] [TIFF OMITTED] T3746A.111
    
    [GRAPHIC] [TIFF OMITTED] T3746A.112
    
    [GRAPHIC] [TIFF OMITTED] T3746A.113
    
    [GRAPHIC] [TIFF OMITTED] T3746A.114
    
    [GRAPHIC] [TIFF OMITTED] T3746A.115
    
    [GRAPHIC] [TIFF OMITTED] T3746A.116
    
    [GRAPHIC] [TIFF OMITTED] T3746A.117
    
    [GRAPHIC] [TIFF OMITTED] T3746A.118
    
    [GRAPHIC] [TIFF OMITTED] T3746A.119
    
    [GRAPHIC] [TIFF OMITTED] T3746A.120
    
    [GRAPHIC] [TIFF OMITTED] T3746A.121
    
    [GRAPHIC] [TIFF OMITTED] T3746A.122
    
    [GRAPHIC] [TIFF OMITTED] T3746A.123
    
    [GRAPHIC] [TIFF OMITTED] T3746A.124
    
    [GRAPHIC] [TIFF OMITTED] T3746A.125
    
    [GRAPHIC] [TIFF OMITTED] T3746A.126
    
    [GRAPHIC] [TIFF OMITTED] T3746A.127
    
    [GRAPHIC] [TIFF OMITTED] T3746A.128
    
    [GRAPHIC] [TIFF OMITTED] T3746A.129
    
    [GRAPHIC] [TIFF OMITTED] T3746A.130
    
    [GRAPHIC] [TIFF OMITTED] T3746A.131
    
    [GRAPHIC] [TIFF OMITTED] T3746A.132
    
    [GRAPHIC] [TIFF OMITTED] T3746A.133
    
    [GRAPHIC] [TIFF OMITTED] T3746A.134
    
    [GRAPHIC] [TIFF OMITTED] T3746A.135
    
    [GRAPHIC] [TIFF OMITTED] T3746A.136
    
    [GRAPHIC] [TIFF OMITTED] T3746A.137
    
    [GRAPHIC] [TIFF OMITTED] T3746A.138
    
    [GRAPHIC] [TIFF OMITTED] T3746A.139
    
    [GRAPHIC] [TIFF OMITTED] T3746A.140
    
    [GRAPHIC] [TIFF OMITTED] T3746A.141
    
    [GRAPHIC] [TIFF OMITTED] T3746A.142
    
    [GRAPHIC] [TIFF OMITTED] T3746A.143
    
    [GRAPHIC] [TIFF OMITTED] T3746A.144
    
    Mr. Boucher. Thank you, Ms. Leanza. Thanks to each of the 
witnesses for your testimony here today.
    I have two letters that are addressed to me which I am 
going to ask unanimous consent to be placed in the record. They 
are commentary on various items of legislation pending before 
us this morning. Without objection, those will be placed in the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Boucher. And, Mr. Doyle, let me begin my questions with 
you with respect to low-power FM.
    One of the letters that I just placed in the record is from 
the public radio station that serves the western part of the 
State of Virginia. It serves my congressional district as well 
as two neighboring congressional districts and I think Mr. 
Walden had raised similar kinds of concerns to those raised in 
this letter during the course of his opening statement.
    This is a public radio station that has a main signal and 
that main signal then is picked up by a whole group of 
translators that are located in our very mountainous region and 
we have two mountain ranges in my congressional district alone. 
And for communities that are down in the valleys that are well 
away from the main signal, these translators are the way that 
public radio service gets propagated out across a very large 
area. And this is the principal public radio station for the 
entire western half of the State of Virginia. It probably 
covers something close to 30 counties. That coverage is largely 
through the translator facilities.
    The concern that has been expressed to me comes from that 
public radio station. So in this instance, it is a public 
station that is a bit concerned about opening the panorama of a 
potential for more public radio broadcasting, in this case 
truly local broadcasting. Not because they oppose it but 
because they are worried about interference. You made brief 
reference in your statement to which I listened very carefully, 
about the studies that you have done relative to translator 
facilities and I want to ask you to amplify on that a bit.
    The concern expressed to me is that the translator facility 
receiving a signal from the main broadcast tower is getting 
what is in effect a fairly weak signal because it is a long way 
away, and around that translator facility, having to pick up a 
very weak signal, if there is any local interference that 
interference can materially degrade that main signal coming 
into the translator and effectively impair the receipt of this 
public radio programming through most of the serviced 
territory. And that strikes me as a legitimate question if not 
a legitimate concern so what I am asking you is how legitimate 
is the concern and what have your studies shown about the 
ability of these translators to pick up very weak signals if 
there is any kind of interference in the area.
    Mr. Doyle. Thank you, Mr. Chairman.
    Yes, that is a legitimate concern. We do have a rule that 
protects what we call the input signal of a FM translator 
station and it is protected in the same way that stations 
signals are protected.
    Mr. Boucher. So this is a protection that would be specific 
to the translator itself and the area around the translator?
    Mr. Doyle. Right, right, correct.
    Mr. Boucher. No, I understand.
    Mr. Doyle. I could look up the rule section number for but 
we do have that in place.
    Mr. Boucher. What do you conclude about the potential for 
third adjacency low-power FM within the immediate area of that 
translator?
    Mr. Doyle. Well, that is exactly the qualification, within 
the immediate area of the translator there would be the 
potential for interference.
    Mr. Boucher. Right and so how do we guard against that?
    Mr. Doyle. Well, we the commission has developed a rule to 
protect stations in that situation.
    Mr. Boucher. If Mr. Doyle's bill passes, can your rule 
still stand?
    Mr. Doyle. It is complementary, yes, it would still stand.
    Mr. Boucher. It is complementary.
    Mr. Doyle. Yes.
    Mr. Boucher. I would like for you to submit for our record 
if you would, a more detailed explanation of how that rule 
works and answer directly the question of how that rule can 
coexist with Mr. Doyle's bill in the event that it is enacted.
    Mr. Doyle. We would be happy to do that.
    Mr. Boucher. OK, thank you.
    Mr. Donovan and Mr. Starzynski, you refer in your testimony 
with respect to volume controls on commercials on television 
programs to a forthcoming recommended practice. I believe you 
said that will be forthcoming in September and that your 
practice will address squarely the need to make sure that the 
volume on commercials is not excessive as compared to the 
regular broadcast programming for volumes?
    Mr. Starzynski. That is right, Mr. Chairman, yes.
    Mr. Boucher. To what extent do you anticipate that this 
practice will be adopted by television broadcasters once it is 
published and I would ask you to make that projection based on 
whatever past experience you have with similar kinds of 
standards that have been recommended to the broadcast industry, 
Mr. Starzynski.
    Mr. Starzynski. Oh OK.
    Mr. Boucher. Or Mr. Donovan, do you want, whoever.
    Mr. Donovan. I think it is a general matter when you have a 
recommended practice that has gone through the industry 
standard-setting body which is what ATSC is and in fact in many 
instances there is more technical detail in that standard than 
in others that we will refer to such as England and other 
countries.
    Mr. Boucher. I understand that it will be technically 
detailed but the question is to what extent will it be put into 
practice and adopted by the local broadcasters?
    Mr. Donovan. I think it will be. I think it clearly becomes 
the norm for the industry and the industry.
    Mr. Boucher. Is that based on past experience?
    Mr. Donovan. It is based on past experience as working 
through the ATSC and industry standards.
    Mr. Boucher. Is there any enforcement to make sure that 
that happens?
    Mr. Donovan. The enforcement becomes self-enforcing, in 
other words you have.
    Mr. Boucher. Is there any monitoring that takes place to 
make sure that it is being complied with by those who at least 
in principle adopt it?
    Mr. Starzynski. Absolutely there is monitoring that 
happens.
    Mr. Boucher. Who does the monitoring?
    Mr. Starzynski. We do it internally. I can speak for NBC 
and it happens at the point at which the content comes into the 
building so it gets monitored extensively and the thing that it 
also does is it applies a contemporary monitoring device. One, 
you may remember the FCC said we can't go farther with this a 
whole bunch of years ago because we don't have the technology 
to do it. We have it now so that technology is an international 
standard. It works very well and it can't be gamed so there is 
no issue where you may have someone trying to game the system. 
It really reads it and it works the way our ears work this 
time. It is not dealing with just the electronics. It is 
dealing with perceptual levels and we have every reason to 
apply this and to move forward with it because we agree with 
you, the problem is out there. We need to fix it.
    Mr. Boucher. All right. Well, you have confidence that your 
standard will be followed, that it will be monitored, that it 
can be effective.
    Mr. Starzynski. Yes, I do. Yes, sir.
    Mr. Boucher. Thank you for those answers.
    Let me take just a moment to address the question of 
payphone rates that are imposed in correctional institutions. I 
am exceeding my time. The chair will be very generous with 
other members in terms of their time to ask questions, also.
    Mr. Hopfinger, let me pose a question to you. You have 
heard Mr. Krogh testify that sometimes the successful bidder in 
contracts to provide these telecommunication services to 
inmates will be the bidder who offers the highest commission to 
the correctional authority, not the bidder who offers the 
lowest priced service. Is that correct and if it is correct how 
is that justified?
    Mr. Hopfinger. Well, Chairman Boucher, I would say that 
today that is not necessarily the case. As the sheriffs' 
associations and the other associations have put forth mandates 
or recommendations that rates for inmates be just and 
reasonable for the inmates and for the people that are paying 
for these calls. I will tell you in the bidding systems today 
the majority of our bids, one of the criteria is for low rates 
but low rates in anticipation with all the other safety and 
security requirements that the system is needed. And, Mr. Krogh 
mentioned a few States where the rates are lower. I will say 
that in addition to the States that Mr. Krogh mentioned, there 
are additional States where rates are in fact coming down and 
that is as a result of the way system is working today.
    Mr. Boucher. All right. Mr. Krogh, let me ask you to 
respond if you like to the answer Mr. Hopfinger just provided 
and additionally if you would, Sheriff Goad in his testimony 
talked about the fact that the commissions that are received by 
correctional authorities are often applied toward services for 
inmates just as rehabilitative services. What is your view 
about whether those services should be financed by the 
commissions on telephone calls as compared perhaps to 
government simply providing through direct appropriations the 
money necessary for those essential services?
    Mr. Krogh. Yes, Mr. Chairman, it is true just turning to 
Mr. Hopfinger's comments first. It is true that in some States 
the rates have come down as a result of decisions made by 
either the State legislature or correctional authorities but 
the point is that the majority of States, you still have and 
other jails and prison systems, you still have exorbitant rates 
where the bidding system has not been reformed and so you have 
violations of in all these other States, violations of the 
Communications Act because they are charging unreasonable 
rates.
    Mr. Boucher. OK. Come to the second part if you would.
    Mr. Krogh. And in terms of the prison welfare programs, I 
really do think that there is no justification for imposing a 
regressive tax on the users of those programs which is what the 
commission rates are. If there is a necessary program, it 
really ought to be funded out of the budget.
    Mr. Boucher. Out of the government's budget.
    Mr. Krogh. Yes.
    Mr. Boucher. Under which the facility is operating.
    Mr. Krogh. Yes and I think things that are more voluntary 
that are more discretionary really the problem as I said is 
that you are taking the choice away from the prisoners and 
their families as to whether they would rather have reasonable 
rates.
    Mr. Boucher. That's fine. Thank you very much, Mr. Krogh.
    Mr. Krogh. Yes.
    Mr. Boucher. My time is expired. The gentleman from 
Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Kelsey, in your opening statement you had mentioned 
that Australia, Brazil, France, Israel, Russia and the United 
Kingdom have already adopted legislation to control this burst 
of sound that comes from advertisements. How has it worked, do 
you know? And first of all, how long ago did they adopt this 
legislation? How long ago did they adopt it?
    Mr. Kelsey. I believe most of the countries in the last few 
years and I highlight in particular in Australia, the trade 
group that represents the broadcasters there went a step 
further and offered technical assistance to broadcasters and 
many in Australia and UK's law in particular are very similar 
to the measure that Representative Eshoo has put forth.
    Mr. Stearns. OK. And have they been successful?
    Mr. Kelsey. I don't know that. I can get back to you, yeah.
    Mr. Stearns. Mr. Starzynski, so the argument is okay we 
have adopted legislation, we don't know if it will solve the 
problem. It is similar to what the gentlelady from California 
has authored. So the question is when would you think that you 
would have the solution here, you said September?
    Mr. Starzynski. Well, we have the recommended practice that 
will be voted on by the membership this summer and released in 
September. We think that will go well and that is through the 
ATSC and we have got a lot of technology happening as we speak. 
I cited some new technology we are putting on the air at WNBC. 
Hopefully, fingers crossed, within the next couple of days that 
will apply a technical solution to the problem without having 
the creative folks who are very concerned about the quality of 
the sound get back to us with kind of a backlash and us 
altering their sound. So technology has gotten us to a point 
where we can apply good loudness practices but not alter the 
creativity of our suppliers.
    Mr. Stearns. Well, the gentlelady's legislation has urged 
you on here and given a little bit more incentive to do it.
    Mr. Starzynski. There is no question that it has. The 
awareness level in the industry right now is tremendous.
    Mr. Stearns. And with that in mind, perhaps the way to 
solve this problem is because Mr. Kelsey is saying these 
countries adopt it but they couldn't do anything without the 
technical advice of people like yourself, so the legislation 
might pass but nothing is going to happen without you folks. So 
you folks are on the issue right now so it looks like you are 
ready with a solution and then that would be sometime this year 
you would have a solution and then we could assume that would 
be promulgated throughout the broadcast industry?
    Mr. Starzynski. That is right as I have said before.
    Mr. Stearns. And what assurance would we have that after 
you have the solution that everybody would adopt it
    Mr. Starzynski. With the level of awareness that we have 
right now and we are all--we are not disputing the fact that 
there is a problem out there. We all know it. We want to fix 
it.
    Mr. Stearns. No, no, but the question is after you have a 
solution, how soon would everybody adopt your solution and what 
assurance would we have that they would without legislation?
    Mr. Starzynski. The assurance is they definitely want to 
solve the problem and to answer your timeframe on this.
    Mr. Stearns. Yes.
    Mr. Starzynski. It is going to vary based on the 
sophistication of the broadcast group or the operator that you 
are speaking about. In terms of NBC Universal with all of our 
resources, we have been able to attack this for the past couple 
of years directly but it is taking us a little while to get 
there because we require technology to let us do it. And you 
also need to understand the proper ways to apply the standard. 
I think that the rollout will be a little bit different across 
the board as it pertains to different levels of sophistication 
in the industry only because of budgets and that kind of thing 
but the key to all of it now is we have a roadmap that will be 
in place to help everyone out with this and there is no more 
ambiguity.
    Mr. Stearns. OK. So if you were writing this legislation, 
you say okay give us a little hiatus here. How long before we 
can say okay you haven't done anything. We are going to pass 
this legislation.
    Mr. Starzynski. Oh, I hope that it never comes to that. I 
hope that what happens you find that we self-regulate this and, 
you know, somebody said this before and I think it is really 
true, engineers want to solve problems and I think the experts 
are on it and they want to solve this issue for you guys for 
all of America.
    Mr. Stearns. OK. Mr. Doyle and Ms. Beasley, the question is 
that the FCC went out and hired an independent contractor, the 
Mitre Corporation, to determine if there was harmful 
interference. If low-power FM stations don't cause harmful 
interference is what basically this independent report said, 
then the question is why do we need section five of the bill 
which requires the FCC to retain third adjacent channel 
protection for full-power, noncommercial FM stations that 
broadcasting services via a sub-carrier frequency. So I mean if 
you have an independent report that says it is no big problem, 
why would we need section five? I mean you dispute the 
independent Mitre disputed?
    Ms. Beasley. We believe that there are flaws within the 
Mitre report?
    Mr. Stearns. Do you have an independent report of your own.
    Ms. Beasley. The industry has provided a report that 
outlines the flaws in the Mitre report.
    Mr. Stearns. OK.
    Ms. Beasley. That being said if I may go on.
    Mr. Stearns. Oh sure.
    Ms. Beasley. My report, I am not an engineer but based on 
my understanding the Mitre report reviewed seven sites and we 
can just take away two of the sites if you will because one 
site was related to a reading service and one task related to 
translators so there were five other sites and there was 
significant interference found at these five sites relative to 
Walkmans and boom boxes. Now, Ms. Leanza, referred to south 
Florida stations, people, you know, going through, riding 
through hurricanes if you will. I am from south Florida. I was 
there.
    Mr. Stearns. I understand.
    Ms. Beasley. I was there when Hurricane Wilma was and as 
well as Hurricane Charley and it is important to note that 
people do not go out and they don't listen to their car radios.
    Mr. Stearns. No, I understand the case. I understand. We 
are just trying to understand if the FCC has an independent 
contractor that says there is no big problem why suddenly you 
are disputing it.
    Ms. Beasley. Well we do and it is on record that we have 
and there is a report.
    Mr. Stearns. OK. Let me just go then.
    Mr. Doyle. Excuse me, could I provide some FCC input into 
this?
    Mr. Stearns. Sure, Mr. Doyle.
    Mr. Doyle. Radio reading services are delivered on sub-
carrier frequencies. These tend to be more fragile then the 
main transmission and in fact the Mitre report did find limited 
amount of interference to the sub-carriers that a radio reading 
service would be carried on. And the commission, on it's own in 
developing these rules imposed this requirement on low-power 
stations to ensure that this vital service would not be 
degraded by low-power stations.
    Mr. Stearns. Thank you. Mr. Krogh, I guess a standard 
question in this issue is it a constitutional right for an 
inmate to have access to a phone? Is that yes or no? I don't 
know. Does an inmate have to have access to a phone, just yes 
or no, do you know?
    Mr. Krogh. I--that really hasn't played a role in the FCC 
proceedings and so I don't really don't have a answer on that.
    Mr. Stearn. OK. And is it the right that they have to have 
rates that are low? I mean I think we would all like them have 
rates but it is, you know, generally when I go out to buy 
something it is what the market will bear and so what we are 
doing as the government is dictating that the rates have to be 
low to give inmates this right to have access to the phone. The 
families don't have to accept these collect calls. They can 
come in and see them or perhaps if they are geographically a 
long ways away perhaps they could restrict their calls because 
if you make it a lot cheaper they are going to call more and 
perhaps it might even be the same rate. So this $400, this $395 
a month you talk about, if the rates a lot cheaper, perhaps 
they are going to make more calls and they will still rack up 
to $395 so at some point somebody is going to have to make a 
consumer decision we don't want to pay this.
    Sheriff Goad, your argument is basically that you use these 
excessive funds for rehabilitation and services to help the 
inmates. In your opinion, I think the chairman touched on it, 
do you believe that the government should provide these or do 
you think that it should be done the way you are doing it?
    Sheriff Goad. Well, I think it should be done the way we 
are doing it. I think in these hard economic times we are 
constantly being cut on budgets. We find that these funds allow 
us to provide many of these indigent inmates with the services 
they need along with undergarments, socks, Bibles.
    Mr. Stearns. Your biggest argument I thought was the 
security.
    Sheriff Goad. Yes.
    Mr. Stearns. When you talked about that you are saying if 
these somehow the government stepped in and prevented you from 
having the rates that you feel are appropriate then you would 
not be able to provide the survey, the recording, the watch on 
terrorists lists and things like that.
    Sheriff Goad. Correct, criminal investigations.
    Mr. Stearns. Criminal investigations which is part of our 
national security.
    Sheriff Goad. Absolutely.
    Mr. Stearns. And depending upon the inmate, whether he is 
there for the severity of the crime would impact how much 
attention you have to do for that inmate and his telephone 
call.
    Sheriff Goad. Yes, sir, they even circumvent some of our 
phone systems where they actually do three-way calling. They 
will call someone outside the facility, get several people on 
lines, a party call and proceed to conduct business as usual.
    Mr. Stearns. Yeah, a lot of these calls are not shall we 
say, felicitous calls. These are calls with intent to perhaps 
commit more crime or to do witness tampering and things like 
that, is what you are saying.
    Sheriff Goad. Correct, we have had intimidation of 
witnesses. We have also had other crimes.
    Mr. Stearns. You have got to have the funds to do that 
security survey in effect or we are really putting our citizens 
at danger.
    Sheriff Goad. Yes, sir, that is correct.
    Mr. Stearns. OK. All right. Thank you, Mr. Chairman.
    Mr. Weiner [presiding]. Just to yield myself a brief moment 
or two just to clarify a couple of things on the record.
    This notion of a free market, I don't know who can answer 
this. A free market, will that dictate that if someone has a 
calling charge, collect call charge 630 percent higher then the 
market, tell me a little bit about what the family can do to 
shop around for a lower rate when someone is making a collect 
call to them from a prison. Perhaps, Mr. Krogh, maybe you can 
explain how the free market works in this instance.
    Mr. Krogh. Well, there is no free market in prison calling. 
There is the exclusive service provider who provides all the 
call and you have no choice and so because of that if we are 
going to continue with exclusive service contracts, the rates 
have to be regulated. The FCC has broad authority to regulate 
interstate telecommunications including and there are no 
exceptions for prisoners. Section 201(b) of the Act requires 
that rates be just and reasonable with no exceptions and the 
families who are paying for these collect calls should have the 
benefit of that Federal Law as much as anyone else.
    Mr. Weiner. Right. I think that most members of this 
committee and apparently the gentleman from Florida would agree 
that we should have the free market. Let's let market forces be 
brought to bear. Let's let more than one operator. Let's let 
800 numbers function and I think that that is the point.
    Mr. Doyle, you are recognized for five minutes.
    Mr. Terry. Parliamentary inquiry. Don't we go back and 
forth?
    Mr. Weiner. Certainly, we do.
    Mr. Terry. Well, you just spoke.
    Mr. Weiner. Was that a line of questioning? I thought it 
was just a point of clarification.
    Mr. Terry. I think he asked his question.
    Mr. Weiner. If the gentleman insists, the gentleman from 
Nebraska is recognized for five minutes.
    Mr. Terry. Thank you. Let me start with the three on this 
side and just work down the table. Let me just give an 
editorial comment more than a question and certainly I think 
the least sympathetic characters are the ones that are in 
prison but there is something distasteful about taking 
advantage of them, too, which I think is the underlying premise 
for this act. Mr. Hopfinger, you made a good point and that 
sheriff, that there are security concerns and technologies that 
have to be woven in here that add to the expense. I think that 
is extremely fair and a good point. I guess the issue is then 
how much of a gap is there when you add in the cost of this 
additional technologies where it is just becoming the in 
essence, I guess, the slush fund for the jails or the prisons. 
Mr. Krogh, I will give you about 15 seconds because I got a 
couple of other things.
    Mr. Krogh. Yes, I think Mr. Hopfinger has been unduly 
modest. I would like to put in a plug for Securus. Securus, for 
example, in Florida is able to provide collect calling, 
interstate collect calling for 4 cents a minute plus a 
connection charge of $1.20 which is equivalent to 14 cents a 
minute for a 12-minute call and they do that elsewhere so they 
can do it. They can cover all of the these expensive security 
functions and all the other monitoring and everything else that 
they have been talking about at those very reasonable rates. 
Plus, in Florida, they are paying out of that low rate, a 35 
percent commission. So in Florida you can have it all.
    Mr. Terry. All right. Well, I will take my time back and I 
will just say I think this does a raise a concern and my 
message back to Sheriff Goad is perhaps to communicate that you 
have been on a conservative, pro-justice side, there is 
concerns about the telephone rates.
    The next group on audio sound, it is a real concern. You 
guys know that. Mr. Starzynski, close enough. I will follow up 
on Cliff's notes, the public demands this. They want action 
from us so the message back, Mr. Donovan, is and to you, is and 
NAB and everyone else that is involved in here, the sooner the 
better. If this doesn't get cleared up, if you guys will vote 
and address this issue in September. If we come back here this 
same time next year and most of the TV stations haven't 
resolved this, this is going to pass. That is my message to 
you. In our household it is so annoying that the habit that we 
have is when the commercials come on we just hit mute, not 
because we don't want to hear the commercial but the decibel 
level goes up significantly.
    Mr. Starzynski. Right and that is not a good place for us 
to be.
    Mr. Terry. And that is not a good place. It is self-
defeating.
    Mr. Starzynski. Right.
    Mr. Terry. Last, let us go to my major issue with Mr. Doyle 
and, Mr. Doyle, who is no relation to the author of this bill, 
just that I would.
    Mr. Doyle. That is correct. My side is not really good at 
breeding that much so we.
    Mr. Terry. Too much information but there was a suggestion 
that in the Mitre study not only was it the reading but five of 
seven of the other sites had interference? That is not my 
understanding. Is that accurate?
    Mr. Doyle. The Mitre study showed that if we threw out one 
outlier case that there was no interference at distance for LP 
hundred stations, your basic low-power station at distances 
greater than 333 meters. That interference became common under 
250 meters and severe within 100 meters of the LPFM transmitter 
site. It has never been the commission's position that there 
would be no interference but as I tried to explain in my test 
imony, we have ample experience with translators to figure out 
how to make this work.
    Mr. Terry. All right.
    Ms. Leanza. Mr. Terry, would you mind if I just?
    Mr. Terry. You have 21 seconds.
    Ms. Leanza. The area of interference we are talking on the 
ground of a low-power radio station, we are talking .0013 of 
the geographic area of a full-power radio station so tiny area. 
If you are next door to a low-power radio station in the same 
building as a low-power radio station, you might not be able to 
hear one of the radio stations. Other then that, there is not 
an issue.
    Mr. Weiner. The gentleman from Pennsylvania, Mr. Doyle, is 
recognized for five minutes.
    Mr. Doyle of Pennsylvania. Thank you. Mr. Doyle, and we are 
not related for the record. So 10 years ago the committee heard 
the fears from broadcasters that if the FCC license these low-
power FM stations on third adjacent that the dial was going to 
be drenched in oceans of interference. So when we passed the 
Radio Broadcasting Preservation Act on an appropriations rider, 
Mr. Doyle, I take it to mean that all low-power FM broadcasting 
has stopped on those third adjacent frequencies?
    Mr. Doyle. Well, yes and no. We certainly have carefully 
followed the directions from Congress and not licensed so-
called low-power FM stations. On the other hand, what I have 
tried to explain is that FM translators are technically 
indistinguishable from low-power FM stations and that for 
example, in the chairman's own district, the station he was 
concerned about, eight translator stations operate without 
effective breach.
    Mr. Doyle of Pennsylvania. Right and I am looking at page 
five of your testimony where the FCC says there is 1,800 of 
these translators already broadcasting right now on the same 
frequencies that there noncommercial groups want to broadcast 
on, is that correct?
    Mr. Doyle. Well, most of these translators are actually in 
the non-reserved band, the 92 to 108 as opposed to the 88 to 92 
part where noncommercial stations simply broadcast. Most low-
power licensing has occurred in the part of the band where 
there are not noncommercial stations. There are some but by and 
large, that is not the problem.
    Mr. Doyle of Pennsylvania. But we have translators on third 
adjacent?
    Mr. Doyle. Absolutely.
    Mr. Doyle of Pennsylvania. OK. So, Ms. Beasley, does your 
organization or are you personally, are you advocating for the 
elimination of these translators?
    Ms. Beasley. We do not have or use translators within our 
company so it is the NAB's position that it is my understanding 
that full-power FM stations use translators for fill-in to 
cover the mass.
    Mr. Doyle of Pennsylvania. But NAB is not advocating that 
we eliminate translators and do you think these translators 
cause oceans of interference?
    Ms. Beasley. I can't speak to that because I personally do 
not, we do not have translators.
    Mr. Doyle of Pennsylvania. I don't think that is the NAB's 
position. I guess, Ms. Leanza, who owns and operates the 
translators?
    Ms. Leanza. By and large, most full-power broadcasters have 
some sort of translators. It depends on what type of service 
they are providing.
    Ms. Beasley. We do not.
    Ms. Leanza. Right, not no, certainly you don't but many, 
many do. It is a widespread use. It is not an atypical, unusual 
use.
    Mr. Doyle of Pennsylvania. So if they don't cause 
interference and they are technically identical and these 
translators don't have some special magical power to work then 
surely these translators must be less powerful then an LPM 
broadcast.
    Mr. Doyle, full-power FM stations sometimes run up to 
100,000 watts, while a noncommercial FM station can run up to 
100 watts so I am assuming these translators must be less 
powerful then that. How powerful are these translators that 
don't cause interference when they are at third adjacent from 
another station?
    Mr. Doyle. Our rules permit a translator up to 250 watts.
    Mr. Doyle of Pennsylvania. 250 watts so two and a half 
times more powerful then any LPFM station so what you are 
telling me is and I hope my colleagues will listen to this, is 
that what we call a rose by any other name would smell as sweet 
but when it comes to FCC and the big broadcasters this name is 
critical. Translators that serve the interest of big 
broadcasters work just fine on these third adjacent channels 
and there is no complaints and no issues about interference but 
when a low-power station run by community groups, schools, 
churches, local governments cause interference, somehow in the 
same adjacent channel these somehow cause interference. I just 
hope once and for all we can sort of eliminate this doubletalk 
that has been taking place for years.
    I want to talk about interference, too. Now, Ms. Beasley, 
in your statement you referenced the Mitre report and you said 
that there was interference caused by low power FM stations. I 
read that study and in the most extreme circumstance it was 
found that the interference was .13 percent of the population 
inside the protected zone of a full-power station. Just for my 
note now, you find that to be an unacceptable level of 
interference?
    Ms. Beasley. What I read last night was there was 
significant degradation at these five sites when you are 
testing with boom boxes and Walkmans.
    Mr. Doyle of Pennsylvania. .13 percent but you found that, 
you think that is unacceptable?
    Ms. Beasley. It is significant such that well if you can't 
get a signal, if you can't hear the programming, if there is 
static and if you are operating when there is a hurricane going 
through your area and we are providing information to the 
masses and we, yes.
    Mr. Doyle of Pennsylvania. So I take that as a yes, okay. I 
am curious I see that the NAB has pushed for allowing 
broadcasters to put HD radio stations next to and along with 
their analog broadcast but the engineers found that an average 
of .6 percent of the population inside the protected zone could 
have their listening effective. Now, that is not a worse case 
scenario like low-power's .13 percent. That is an average 
finding .6 percent, so that is a lot more interference then the 
low-power stations would cause even in a worse case scenario.
    So, Mr. Doyle, let me make sure I understand this 
correctly. The NAB has endorsed this .6 level of interference 
as acceptable for HD radio?
    Mr. Doyle. I don't really understand.
    Mr. Doyle of Pennsylvania. Has the NAB filed a request to 
multiply the power of these digital signals by 1,000 percent?
    Mr. Doyle. No, they asked to increase it by tenfold from 1 
percent to 10 percent of the analog power level. The issue 
there, Mr. Doyle, I think is different. That is a question of 
digital into analog and I am not sure that it correlates to the 
analog into analog technical dispute that is your bill is 
focused on.
    Mr. Doyle of Pennsylvania. So let me ask you one final 
question, Mr. Doyle. You are the expert at the FCC. You have 
studied this issue backwards and forwards. Twice the FCC and 
bipartisan votes have recommended that Congress lift this 
prohibition of third adjacent channel. Do you think that 
passing this bill will in anyway hurt public radio stations 
like my friend, Mr. Walden, is concerned about or this will 
cause any interference of a major proportion outside that 100-
foot zone that you thought? I mean what basically happens so 
that finally communities like mine who can't get LPFM, can't 
get an LPFM station in the City of Pittsburgh. There are a lot 
of places in this country, 140 million people don't have access 
to this valuable service because of this rule which apparently 
doesn't seem to cause--do you see any harmful effects by 
allowing us to use third adjacent for LPFM?
    Mr. Doyle. The commission's judgment was not that there 
would be no interference. It was that the interference would be 
tightly limited to the immediate environment of the LPFM 
transmitter site and looking at the significant benefits of an 
expanded LPFM service, decided that the benefits far outweighed 
the very, very limited interference that would occur typically 
within 100 or 200 meters of the LPFM transmitters.
    Mr. Weiner. Thank you, Mr. Doyle
    Mr. Doyle of Pennsylvania. Thank you very much.
    Mr. Weiner. Mr. Walden is recognized for five minutes.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Mr. Doyle, I had a question for you. Do LPFM applicants 
have priority on frequency over existing translators?
    Mr. Doyle. LPFM has priority over no one right now. The 
priority relationship between translators and LPFM stations is 
a first-come, first-served rule so they are coequal so that 
today.
    Mr. Walden. So one can't bump the other?
    Mr. Doyle. That is correct.
    Mr. Walden. OK. Talk to me about the requirements on LPFM. 
Do they have to have a main--do they fall under the main studio 
rule?
    Mr. Doyle. They do not have a main studio rule. They must 
be local. We don't have staffing requirements for them. We 
don't have public inspection files.
    Mr. Walden. So they are--I want to go back to that. So low-
power FM, do they have a requirement to serve their community 
like commercial broadcasters do and how do they identify their 
compliance with that if they don't have a public file or a main 
studio? What does the FCC require?
    Mr. Doyle. Well, every station must be licensed; must be 
held by a local community organization.
    Mr. Walden. Understood.
    Mr. Doyle. It must be operated on a noncommercial basis.
    Mr. Walden. And how do you monitor that point because I 
have heard from people that they are out basically selling 
advertising. Are they allowed to do that?
    Mr. Doyle. No, they are not.
    Mr. Walden. And do you take enforcement actions?
    Mr. Doyle. Not my division directly.
    Mr. Walden. Could you provide me with enforcement actions 
you have taken and complaints you have received, for the 
record?
    Mr. Doyle. We would be very happy to do so and there have 
been some related to violations of our underwriting rule so you 
are correct on that.
    Mr. Walden. I thought so. I want to go back though as a 
citizen I have the right to go into any commercial radio 
station. I assume public broadcast, as well, and look at their 
public file to see how they are addressing the issues that are 
important to their community. What is the requirement for an 
LPFM? What is my right as a citizen to go in and see what they 
have identified as their community issues and how they are 
addressing them? Do I have right to a public file?
    Mr. Doyle. When the commission created this service they 
decided that it would work best with very limited reporting and 
filing responsibilities and they do not have.
    Mr. Walden. Do they have to do community ascertainment? Do 
they have to decide what is important to their community?
    Mr. Doyle. No, but certainly.
    Mr. Walden. OK.
    Mr. Doyle. Like every other station, every eight years 
their license comes up for renewal and the public is welcome to 
comment on whether the station is operating in the public 
interest.
    Mr. Walden. And that public interest though for other 
broadcasters, that is pretty well spelled out. They have to 
serve their community, right? So you are telling me these LPFMs 
don't have to serve their community? How do I know? I mean they 
don't have to identify?
    Ms. Leanza. They have the same obligations.
    Mr. Walden. Oh, they do. So they do have a public file 
requirement?
    Ms. Leanza. There is not a public file.
    Mr. Walden. And they have a main studio requirement where I 
can go in and look?
    Ms. Leanza. But they are licensed also under the 
Communications Act. They have an obligation to serve the 
public.
    Mr. Walden. I don't think your mike is on, by the way as an 
old radio guy, or just get real close to it. So but I am trying 
to get to this point of they can come into--the public can go 
into any radio, commercial or public broadcast station and look 
in the public file. My question is do LPFMs have to have a 
public file?
    Ms. Leanza. Currently, under the rules, they do not.
    Mr. Walden. And do they have to identify what the issues of 
concern are in their community and address those issues?
    Ms. Leanza. They do generally speaking because they are 
subject to the same public interest standard that all 
broadcasts are subject to.
    Mr. Walden. So, Mr. Doyle, is that correct? They have to 
identify community interests on a quarterly basis and speak to 
how they address them or not?
    Mr. Doyle. The quarterly issues program requirement does 
not apply to low-power stations.
    Mr. Walden. So how do you ever measure them when it comes 
up to license renewal whether they have served their community? 
What is the standard you apply?
    Mr. Doyle. Well, while listeners would not have the ability 
to review a station's issues programs list, they have the same 
opportunities as listeners of any station to come to the 
commission with their concerns about the programming that they 
have heard on the station during the prior license term.
    Mr. Walden. Are the LPFMs required to have the Emergency 
Alert System capabilities too to notify their listeners in the 
event of an emergency?
    Mr. Doyle. They do have an EAS requirement.
    Mr. Walden. OK. And they are not a priority station, though 
I assume?
    Mr. Doyle. I don't think any.
    Mr. Walden. None are primaries. OK. All right.
    Ms. Leanza. But they do most of them are setup automated so 
they can transmit through that signal automatically at any 
time.
    Mr. Walden. Yeah, they are allowed to do unattended 
operation as well, right? Is there any requirement of local 
programming on those LPFMs or could they just download 
satellite programming and rebroadcast it?
    Mr. Doyle. Our licensing criteria favor those stations that 
pledge to do at least eight hours of locally originated 
programming but there is no local program origination 
requirement.
    Mr. Walden. All right. Thank you.
    Ms. Leanza. That there is on any other station. There is 
not such obligation.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Weiner. Thank you. Mr. Rush, there is less than a 
minute left on the clock on the floor. Would you like to try to 
squeeze in now or do you just want to be the first when we come 
back? We are going to recess until about 12:25. I appreciate 
your patience when we do promptly. There is nine of you. Maybe 
you can go play baseball or something. The committee is in 
recess until approximately 12:30.
    [Recess.]
    Mr. Weiner. The committee has returned from recess. The 
gentlewoman from California is recognized for five minutes.
    Ms. Eshoo. I thank the chairman. It is nice to see you in 
the chair and I apologize both to committee members and to the 
witnesses that are here today, especially those that have an 
interest in the CALM Act which I am the author of. I have three 
places that I needed to be at the exact same time today and all 
of them important, so I apologize for being late. I would like 
to submit my opening statement for the record.
    Mr. Weiner. We have got to get you one of those translator 
devices they were talking about. You can be everywhere at once.
    Ms. Eshoo. Yeah, I would like to submit my statement for 
the record and I would like to take this opportunity to thank 
not only members of the committee that are cosponsors of the 
CALM Act but also point to Chairman Boucher because he has had 
a commitment to the bill and we wouldn't be a part of this 
hearing, this bill would not be part of the hearing today.
    I think unless someone has said this, this is the bill. It 
is essentially a one-page bill. This is not complicated and 
while I don't think I need to reemphasize why the change is 
needed, it is worth saying that I think consumers have waited 
too long for this change to be made.
    I am thrilled that there is technology and the confidence 
that there is technology that will address this. I come from 
the technology capital of the United States of America, Silicon 
Valley. I have no doubt that technology can take care of this 
and the technologists need to work hand-in-hand with the FCC. 
You are ready to go. This bill passes and is signed into Law, 
then you will have a key role in that. I don't find the bill 
menacing, most frankly, because all it does is instruct the FCC 
within a year of enactment to come up with a solution.
    There were hearings in the '60s. There were hearings in the 
'70s. There were hearings in the '80s. It is now the 21st 
century. There is no reason for people to have to hit their 
mute buttons. There just isn't. I think it is a disadvantage to 
advertisers who pay a lot of money and how the broadcasters 
really keep themselves going, the programming and the networks.
    So I have to say in 16 and a half years in Congress, I have 
never had a bill that was so embraced by so many. I don't even 
get to finish my sentence about what the bill would accomplish 
but people say absolutely. Good luck. We need to do this. It is 
a great source of irritation to me. So while this is a 
profoundly sobering time in the history of our nation, I by no 
means see the CALM Act as being something that is going to 
resolve, you know, huge, daunting, national problems. It, 
frankly, is way down the list when we examine the great 
challenges that America has but I do think that it is something 
that we should and that we can take care of.
    I think consumers have had it. Newspapers have 
editorialized in different parts of the country. Consumers know 
what this is. You mention it. It is bipartisan. It is a 
bipartisan irritant. Let me put it that way. So to the 
technologists, I am very pleased that you are taking this 
seriously and than you think that the answer is around the 
corner. You can take that great message to the FCC and I look 
forward to this bill passing with huge support in both the 
House and in the other body and I want to thank everyone that 
has been involved in this and those that have supported it and 
as well as those that have questions. I think that you should 
take a deep breath, stay very calm, if you don't mind my using 
the title of the bill and that this one-page bill will bring 
some relief, a lot of relief to a lot of people across the 
country.
    With that, I will yield back the balance of my time. Mr. 
Chairman, thank you and I am going to return to my other 
committee and look forward to great vote on this. Thank you 
very, very much.
    [The prepared statement of Ms. Eshoo follows:]
    Mr. Weiner. The chair yields himself five minutes.
    If we could return a moment to the Family Telephone 
Connection Protection Act, in the conversation between Mr. 
Stearns and I think the sheriff and maybe Mr. Hopfinger. There 
was the position posited that perhaps telephone contact with 
the outside world is problematic. There is plans to sharing of 
information that might be deleterious. That is contrary to what 
other findings that we have seen that say that frankly keeping 
connection not just inside the jail but having a connection 
outside with the world is actually salutary to their 
rehabilitation.
    Mr. Krogh, do you want to weigh in on that discussion and 
then, Mr. Hopfinger, I will give you another chance to expound 
on what you were saying.
    Mr. Krogh. Yes, the studies have uniformly demonstrated 
that maintaining these communications is very important for 
rehabilitation and especially in situations where you have got 
inmates who are very far away from their families, sometimes in 
other States. And it is crucial to have reasonable rates so 
that they can maintain these ties with the community and their 
families. And you can also have good security. Securus, as I 
mentioned, provides all of these security functions in a number 
of States and apparently they are able to do this and still 
make a profit at very reasonable rates. Florida and New Mexico 
are two examples. So there is no inconsistency between having 
reasonable rates so you have plenty of ties between maintaining 
these ties between the prisoners and their families.
    Mr. Weiner. Is there any evidence that the Federal 
Government, the Federal Penal System which has an 800 number 
for which families pay I think 7 cents a minute? Is there any 
sign that those are less safe, any signs that there is any more 
sharing of information, any more witness tampering? Is there 
any evidence at all to support the thesis that maybe having 
barriers to people making phone calls like a 600 percent 
additional cost compared to what the Federal Government 
charges? Is there any evidence at all to support the theory 
that that somehow reduces recidivism or it reduces witness 
tampering or anything like that? Is there any evidence that you 
have seen in your experience that shows that?
    Mr. Krogh. I haven't seen anything that shows that there 
are problems in the Federal system which has debit calling and 
at a fairly reasonable rate and again, if you have got--you can 
have all of the security functions so you can keep control over 
that call and still have a reasonable rate.
    Mr. Weiner. Mr. Hopfinger, do you want to take the contrary 
position?
    Mr. Hopfinger. Let me say, we concur that contact with the 
outside world by inmates is certainly appropriate. We wouldn't 
be in business if that contact didn't occur but every system 
that we install must be customized and looked at on an 
individual basis. Mr. Krogh has discussed large Department of 
Correction facilities where there are low rates. The Federal 
facilities that have a large number of inmates where there are 
low rates. Those things don't necessarily fit especially in the 
city and small county jails because just simply the volume of 
calls is not there in which to recover the cost.
    We absolutely want to provide as much service and complete 
as many calls as we can but it must be done so on a secure 
basis. Our concern with the bill is it would mandate something 
that would not fit in many of the facilities. Plus, the fact 
the bill goes well beyond talking about just rates. It mandates 
other issues that would in fact actually increased the cost to 
both our services and to the correctional facilities. So that 
is our concern.
    Mr. Weiner. Thank you. Let me just move on briefly to the 
CALM Act. I am curious why this is such a difficult 
technological fix. Certainly, that if someone wants to 
advertise on a local TV station that they are told that they 
have to provide the advertisement in a certain format. It has 
got to be on a certain size disc or a certain size tape. I am 
sure they are told that it has to be of a certain length, a 
certain duration and it has to be of a certain quality in 
order. Why can't you just say it has got to be no louder than 
X? Why don't you say as a standard for what you are going to 
accept for advertising, you have got to be in this category? 
They play the tape, if it is not you say you have got to go 
back to your shop and fix it. Tell me why that intuitive 
reaction to this problem is technologically difficult. Mr. 
Donovan, fire away?
    Mr. Donovan. I think essentially you are correct and which 
is why you are seeing policies that have been established by 
the major networks, for example, that have precisely that in 
which they would like their advertising and their programming 
to be sent to them in a certain way. You do have a variety of 
program suppliers and advertisers and what have you bringing in 
the inputs. You have local advertising. You have national spot 
advertising, syndicated programming, network programming but 
that is all, candidly, it is all being worked out. The networks 
have established a policy to do that so conceptually, you are 
right. This is something that needs to be done and is being 
done. Where it got a little bit tricky here, and I will let Jim 
go into detail on this but where it got tricky is that you want 
to make sure that while you are controlling the advertising 
aspects in terms of loudness and what have you. You don't want 
to squelch the benefits of the digital system, i.e., the Dolby 
5.1 which has tremendous dynamic range for consumers that 
bought surround sound, theater sets and what have you because 
if you just put a level right across the board, not only would 
you hit the advertising but you would also hit the program. So 
that is what has made it a little bit tricky as we move forward 
with digital which is why, I mean we have been working on this 
since 2007 and I think that Jim will tell you we are there. I 
mean you are literally several months away from actually 
working out an ATSC standard that will resolve it. But the 
concern we have now, sir, is that as I said, engineers are 
problem solvers and we are there. Once you create a--and there 
are winners and losers whenever you have these engineering 
battles. Once you create a new venue, which is okay now we are 
going to kick it over to the FCC for a rule, what you sometimes 
do and it is true in any standard setting issue that gets 
kicked over to the commission, you create a jump ball.
    Mr. Weiner. I understand that and I heard that in the 
testimony but if you look at our punch list of the reasons 
people comment opposed legislation like one of the general 
reasons is we agree, we are on it, got you covered, no need to 
pass any legislation and it doesn't--it strikes some of us who 
obviously are not technology people like you are.
    Mr. Donovan. Right.
    Mr. Weiner. That it seems like a relatively easy fix was 
coming and it never arrived.
    Mr. Donovan. And so it is here.
    Mr. Weiner. I know, I hear you. Mr. Starzynski, maybe you 
can just answer why you can't just say look, here is your 
checklist of things, the requirements you need to have and 
being excessively loud when you are selling.
    Mr. Starzynski. You have hit the critical part of the 
issue. So we publish a content specification, a delivery spec 
that goes out to all of our suppliers. It doesn't matter if 
they are program suppliers or if they are commercial suppliers. 
We ask them to hit a target level like I said in my testimony. 
The issue has been that with the digital transition and moving 
off of analog and going to digital with all this great range 
that we have been speaking about, there is the opportunity 
there to have problems with controlling your loudness if you 
don't understand the new techniques that are involved or if you 
don't own the equipment that is necessary that I spoke about 
before, which kind of changes the game in the way all of this 
is done through the ITU standard and which the gentleman from 
Consumer Reports spoke about.
    So the ATSC recommended practice goes right to the heart of 
that and it says you will use this standard to measure your 
sound and you will take those readings and you will deliver 
your content as asked in the program spec. And we all put this 
in there but I think what you are getting at is the issue is 
that, you remember I spoke a little bit before about the 
culture change. We have had a lot of folks mixing sound with 
old analog techniques for a very long time using meters that 
protected the electronics, not meters, contemporary meters like 
the ones that work like your ears do. So we get this out in the 
industry. We have got a roadmap on where we need to go with 
this. Technology is catching up on this. Things are becoming 
cheaper and the bill that is out in front of us today really 
has raised such a level of awareness across the industry that 
it is like a no-brainer that this is got to happen. We are not 
disputing that there is a problem here. We got to fix the 
problem and again and this just rains true, the engineers that 
are kind of working on this whose living is based on this, want 
to go out there and fix this and make it right for the public. 
Is that helpful?
    Mr. Weiner. It was. Thank you.
    Mr. Kelsey. Can I just quickly add, I think one of the 
things that we saw with the DTV transition is that many 
broadcasters are different and I think that the broadcasters 
that step up and adopt the standard should definitely be 
commended for changing this but, you know, a standard is one of 
the key way to make sure that listeners in Dallas experience 
the same type of viewing as listeners in New York. And so, you 
know, I would urge the committee and also the FCC.
    Mr. Weiner. We are used to a higher volume in New York but 
what can I do about that? Do you have one final you want to?
    Mr. Donovan. One final point on that is because when the 
ATSC standard was adopted it includes a number of voluntary 
components to that standard, and to Chairman Boucher's initial 
comment, question, even though they are voluntary, they are 
adopted throughout the industry. So it is not a question that 
you have to have this or something won't get done. This will 
get adopted and disseminate throughout the entire industry.
    Mr. Weiner. Thank you. And before I yield to Mr. Rush, just 
would request unanimous consent that two editorials about the 
high cost of phone service being charged to inmates by Errol 
Louis of The Daily News be included in the record. Without 
objection, so ordered not.
    [The information appears at the conclusion of the hearing.]
    Mr. Weiner. Mr. Rush, you are recognized for such time as 
you may need.
    Mr. Rush. Thank you, Mr. Chairman. Boy oh boy oh boy, I 
think I have heard it all. Mr. Chairman, let me just start by 
first of all I want to thank you for obtaining support 20 media 
justice organizations around the country in support of this 
bill. Would you please express my thanks and gratitude to all 
of them, please?
    I want to also, Mr. Chairman, and members of the 
subcommittee, announce that my bill H.R. 1133 has been urged to 
be adopted by the American Correctional Association in support 
of the goals in this legislation ensuring access and reasonable 
rates for telecommunication services.
    Now, I want to, Mr. Hopfinger, you have really kind of 
stretched the issue so thin, I don't really know how to express 
how preposterous I think it is. Are you trying to tell me that 
this grandmamma who got a grandson that she been trying to 
raise in the poor community. She is on a fixed income. Are you 
trying to tell me that your company has a right to snatch her 
hard, her dollars first of all, she is on a fixed income, to 
pay for you gouging her grandson who is the inmate and somehow 
you justify it by saying that you are on the lookout for Al-
Qaeda or Al-Qaeda operatives? Are you trying to tell this 
subcommittee that that is a part of your rationale?
    Mr. Hopfinger. Congressman, we are not trying to gouge 
anyone. Our rates try to be compensatory in offering the 
services we do and we offer those services in a manner that we 
hope protects the public and the safety of the inmates. The 
rates are higher in most correctional institutions because of 
those requirements.
    Mr. Rush. All right. All right. Sheriff Goad.
    Sheriff Goad. Yes, sir.
    Mr. Rush. You have indicated that you have some services 
that are paid for, a lot of programs that are paid for by these 
exorbitant rates, these excessive rates that inmates are being 
charged.
    Sheriff Goad. Yes, sir.
    Mr. Rush. Can you give us an idea of some of those 
services?
    Sheriff Goad. Yes, sir. The inmate, a lot of it is inmate 
welfare funds.
    Mr. Rush. What do you mean by that?
    Sheriff Goad. Underwear, socks, toothbrushes, toothpaste.
    Mr. Rush. In the absence of these funds, in the absence of 
this business arrangement between this company or whatever 
company they are.
    Sheriff Goad. Yes, sir.
    Mr. Rush. Are you saying that your inmates would be forced 
to run around naked? Is that what you are saying?
    Sheriff Goad. No, sir, I would not.
    Mr. Rush. All right. Well then what alternatives are there?
    Sheriff Goad. In the past prior to some of the things that 
are in place now with the resources that we have, a lot of your 
community people provided these issues to such as underwear and 
socks and some other things to our inmates.
    Mr. Rush. And are you saying that there is no 
responsibility first and foremost by the government of Maryland 
to provide these kinds of items for the inmates?
    Sheriff Goad. No, sir, I would not say that.
    Mr. Rush. OK. And so then the little old grandmammas or 
these single mothers who have small children and one or two who 
might be incarcerated, are you saying then that they should be 
taking food off their table to pay for underwear that really is 
the responsibility of the State of Maryland? Is that what you 
are telling this committee?
    Sheriff Goad. No, on that note I would not say that. I 
would say that we are providing a service to the inmates and of 
course that service is not.
    Mr. Rush. What other laudable program besides making sure 
that the inmates, you know, have Michael Jordan underwear, what 
other laudable programs you got?
    Sheriff Goad. We do anti-recidivism programs. We have age 
education, basic adult education which is GED, substance abuse 
programs along with child.
    Mr. Rush. And what percentage are these commissions go 
toward those programs?
    Sheriff Goad. Most all of the commissions that we receive 
is generated back into our facility.
    Mr. Rush. OK. For your exemplary employees that you might 
have, do you have exemplary employees in your?
    Sheriff Goad. Yes, sir.
    Mr. Rush. And do you give them a bonus?
    Sheriff Goad. No, sir, I do not.
    Mr. Rush. Are you aware of any State prison, board or 
prison system that gives its employees bonuses?
    Sheriff Goad. Currently, sir, I do not have that 
information.
    Mr. Rush. You don't have that information so you are saying 
then that most of the--that there are no--none of these 
commissions go toward bonuses for your employees?
    Sheriff Goad. Can I say that specifically, no sir, but I 
don't have that information in front of me currently.
    Mr. Rush. OK. Let me make sure you understand? All right. 
You are the sheriff of what county?
    Sheriff Goad. Allegany County.
    Mr. Rush. Allegany County. Is there any employees in 
Allegany County that receive a bonus?
    Sheriff Goad. No, sir.
    Mr. Rush. That is no, okay.
    Sheriff Goad. No, sir.
    Mr. Rush. OK. How does the bidding process, how did you 
select and what company do you have to give?
    Sheriff Goad. What company do we have?
    Mr. Rush. Yeah, do you use?
    Sheriff Goad. We use a company with Securus.
    Mr. Rush. Securus, okay, how did you select them, Securus?
    Sheriff Goad. We actually put out a RFB.
    Mr. Rush. And what did you make that decision based on? 
What did you make the decision based on?
    Sheriff Goad. Based on the software, their security 
equipment.
    Mr. Rush. OK. How much influence did the cost of that or 
your remuneration or your commission, what percentage had an 
influence on your--let me ask the question correctly. How much 
bearing did the cost that or the commission that you were going 
to receive, how much bearing did that have on your decision to 
hire Securus?
    Sheriff Goad. Not a large bearing?
    Mr. Rush. But some bearing, is that correct, some bearing?
    Sheriff Goad. Based some bearing, yes, sir.
    Mr. Rush. OK. And if in fact you did not have this 
organization or have this kind of arrangement then you would 
be--where would you get the money to make up the hole in your 
budget? Where would you get that money from?
    Sheriff Goad. If we failed, if the resources were 
terminated we would have to go back to the county and look at 
the burden on the taxpayers.
    Mr. Rush. OK. Explain to me how you think that your program 
creating and charging these families, not necessarily the 
inmates how does that have an effect on the recidivism issue in 
your county?
    Sheriff Goad. Well, our recidivism for some in higher than 
others. Some of our recidivism is very low. I think again as I 
mentioned in my testimony, I think communication is very 
essential.
    Mr. Rush. Are you elected to office?
    Sheriff Goad. Yes, sir.
    Mr. Rush. OK. And so in your past campaign for office have 
you ever ran on--had a part of your--how long have you been a 
sheriff first of all?
    Sheriff Goad. I am on my 15th year, my fourth term.
    Mr. Rush. So you ran three times or four times?
    Sheriff Goad. Four times.
    Mr. Rush. OK. And have you ever included in your campaign 
material for reelection that you are able to justify to your 
voters or highlight to your voters that because you have high 
cost telephone service that you have these and this 
arrangements with this company that you are able to have a 
detrimental effect on recidivism rate?
    Sheriff Goad. Have I ever? No, sir, I have not.
    Mr. Rush. OK. And so that is not a claim that you might, 
that you would promote?
    Sheriff Goad. No.
    Mr. Rush. Do your voters know that they are being gouged or 
being overly charged on these rates that that is a policy?
    Sheriff Goad. Well, I can't speculate on that but I do know 
that the majority of the public isn't familiar with our rates.
    Mr. Rush. All right. Mr. Krogh, you mentioned in your 
testimony that a few States have taken action to require that 
the cost be the dominant factor in determining which bidder 
wins an exclusive contract with the State correctional facility 
and the price includes permitted charges and connection 
charges. Do you have any other information on the effects such 
decisions have had on these services?
    Mr. Krogh. Well, generally just simply that the higher the 
rate, the less calling there is and the less communication that 
there is by the prisoners and the families often have to refuse 
calls.
    Mr. Rush. Right. Can you respond if you will to Mr. 
Hopfinger and Mr. Goad that maximum security is dependent on 
Mr. Hopfinger's company charging excessively for phone service 
for inmates and Sheriff Goad's agency organization receiving 
high commissions from the actions of Mr. Hopfinger's 
organization? Can you comment on that fact?
    Mr. Krogh. Yes, as I have mentioned, Securus and other 
service providers are able to provide these services with all 
of the required security functions.
    Mr. Rush. No, I am not talking about the security functions 
in that regard in terms of instrumentality. I am talking about 
the maximum security?
    Mr. Krogh. Well, I mean to the extent that the telephone 
service has any impact on national security one way or the 
other, they can meet whatever Securus security requirements are 
imposed on them by the correctional department or the 
authorities, they can meet those all those requirements at very 
reasonable rates and so they shouldn't be charging higher than 
that.
    Mr. Rush. Yes, so am I to believe or the members of the 
subcommittee to believe that those State and those counties 
that don't have exorbitant rates that they are somehow less 
concerned about national security than the ones who charge 
exorbitant rates?
    Mr. Krogh. No, I don't think that we can draw that 
conclusion. The Federal Bureau of Prisons has reasonable debit 
rates for prisoners. I am sure they are the state of the art in 
terms of the security, all the security functions that you need 
and these States have the reasonable rates there is a variety 
of States, Florida, New Mexico, Nebraska, New York, all of 
these States I am sure are just as they are focusing on these 
security functions especially New York as much as any other 
correctional authorities in other State and they have come to 
the conclusion they don't need to charge these exorbitant rates 
to maintain all the security functions they need.
    Mr. Rush. Mr. Chairman, well let me just ask one additional 
question here. Sheriff Goad, what equipment do you use for 
monitoring and tracking inmate calls?
    Sheriff Goad. The equipment is provided through Evercom 
with Securus Communication.
    Mr. Rush. OK. And where is it located at?
    Sheriff Goad. In my facility.
    Mr. Rush. In your facility. Okay. Does that equipment 
provide you additional security measures?
    Sheriff Goad. It provides me the ability to monitor those 
inmates that I have in my facility, yes, sir.
    Mr. Rush. OK. It provides--so lacking that equipment you 
couldn't monitor your inmates?
    Sheriff Goad. No, sir.
    Mr. Rush. OK. Is there any other equipment available to you 
off the shelf?
    Sheriff Goad. I have, no, not off the shelf but I also have 
video cameras is the only other use of security equipment that 
we use but they are not audio. They are just video.
    Mr. Rush. OK. If you had multiple carriers and the inmates 
had a choice, would your ability to monitor your inmates, would 
that be hindered at all?
    Sheriff Goad. I am not a technical person but I don't know 
how that would work.
    Mr. Rush. You don't know how that would work.
    Sheriff Goad. I am not sure how multiple carriers would 
actually work if you had numerous providers.
    Mr. Rush. OK. But you don't--so you are not sure whether or 
not it would be a hindrance?
    Sheriff Goad. Right.
    Mr. Rush. Right, now is that what your answer indicates?
    Sheriff Goad. To me and again I am not a technical person.
    Mr. Rush. Right.
    Sheriff Goad. It seems to me if the more providers I had it 
would be a hindrance to us trying to provide each inmate with 
each particular provider that they so chose.
    Mr. Rush. OK.
    Mr. Weiner. Would the gentleman yield for a moment? Is 
there any reason you can't just have a series of different 800 
numbers that people can dial and then the surveillance 
equipment is all just on the hardware? I mean why couldn't you 
have a choice of five or six different 800 numbers you can 
dial?
    Sheriff Goad. Can I defer to Mr. Hopfinger?
    Mr. Weiner. Certainly.
    Sheriff Goad. Technically, I do not know.
    Mr. Weiner. I hear you now. Go ahead, Mr. Hopfinger.
    Mr. Hopfinger. Yes, what happens is when an 800 number is 
called the system loses all track of where the call actually 
terminates. All we know is an 800 number was called and then 
there is a series of numbers dialed after that. The system 
wouldn't know where that call actually terminated, who received 
that call, whether it was a call next door or across the 
nation.
    Mr. Weiner. And that failure of knowing who the inmate is 
calling provides a security risk you say?
    Mr. Hopfinger. Absolutely.
    Mr. Weiner. Got you. Thank you, Mr. Rush.
    Mr. Rush. Yeah, and my final question, how much--so your, 
Mr. Hopfinger, your business activities is centered on 
exclusively incarcerating individuals in a jail system. That is 
your market? That is your niche in the market, is that right?
    Mr. Hopfinger. Yes, Congressman Rush. We are exclusively an 
inmate telecommunication service provider.
    Mr. Rush. OK. So you actually have a captive audience. That 
is what you, I mean, you are saying you have a captive 
audience, right?
    Mr. Hopfinger. Well, I wouldn't consider it a captive 
audience because I have a lot of other competitors out there 
that want so business so I don't get all that business.
    Mr. Rush. It is very lucrative, right?
    Mr. Hopfinger. No, sir, it is not. If you will look at our 
SEC filings, we actually operated at a loss in 2008 and most of 
the inmate telephone service providers, I met with two 
presidents last week and they are hoping for a low single digit 
return on their investment this year.
    Mr. Rush. OK. Well, thank you. I yield back the balance of 
my time.
    Mr. Weiner. I thank you, Mr. Rush, the author of the bill. 
Hopefully, we will have quieter TV commercials, we will have 
community broadcasters be able to tell everyone that 
information without interference and then I guess prisoners 
will be able to call home and brag about it less expensively.
    I ask unanimous consent to keep the record open for an 
appropriate period of time for members to submit opening 
statements and questions for the record. I thank--without 
objection, so ordered and I thank all of the witnesses for 
their patience and their excellent testimony. The committee is 
adjourned.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T3746A.145
    
    [GRAPHIC] [TIFF OMITTED] T3746A.146
    
    [GRAPHIC] [TIFF OMITTED] T3746A.147
    
    [GRAPHIC] [TIFF OMITTED] T3746A.148
    
    [GRAPHIC] [TIFF OMITTED] T3746A.149
    
    [GRAPHIC] [TIFF OMITTED] T3746A.150
    
    [GRAPHIC] [TIFF OMITTED] T3746A.151
    
    [GRAPHIC] [TIFF OMITTED] T3746A.152
    
    [GRAPHIC] [TIFF OMITTED] T3746A.153
    
    [GRAPHIC] [TIFF OMITTED] T3746A.154
    
    [GRAPHIC] [TIFF OMITTED] T3746A.155
    
    [GRAPHIC] [TIFF OMITTED] T3746A.156
    
    [GRAPHIC] [TIFF OMITTED] T3746A.157
    
    [GRAPHIC] [TIFF OMITTED] T3746A.158
    
    [GRAPHIC] [TIFF OMITTED] T3746A.159
    
    [GRAPHIC] [TIFF OMITTED] T3746A.160
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
